<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                         SONNY CALLAHAN, Alabama
 HAROLD ROGERS, Kentucky             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 TOM LATHAM, Iowa                    ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        JAMES E. CLYBURN, South Carolina
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 JO ANN EMERSON, Missouri
 JOHN T. DOOLITTLE, California      
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Robert Schmidt, Jeanne L. Wilson, and Kevin V. Cook, Staff Assistants
                                ________
                                 PART 5
                                                                   Page
 Secretary of Energy..............................................    1
 Science, Renewable Energy, and Nuclear Energy.................... 1223
 Federal Energy Regulatory Commission............................. 1387
 Nuclear Regulatory Commission.................................... 1453

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-790                     WASHINGTON : 2002

                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                          DEPARTMENT OF ENERGY

                                WITNESS

SPENCER ABRAHAM, SECRETARY, DEPARTMENT OF ENERGY
ROBERT CARD, UNDER SECRETARY, DEPARTMENT OF ENERGY

                            Opening Remarks

    Mr. Callahan. Good morning. Good morning, Mr. Secretary.
    Secretary Abraham. Mr. Chairman.
    Mr. Callahan. Thank you for your appearance, your second 
appearance before this august body. We understand that the 
administration has suggested a budget level for you that meets 
with your approval and that will allow you to have the 
necessary resources to run effectively your agency. We look 
forward this morning to your testimony. I will have no opening 
statement, but naturally we will have some questions. We would 
also allow members 5 days to submit questions, and we would 
appreciate your expediting that response to us.
    Pete, do you have any opening remarks?
    Mr. Visclosky. Mr. Chairman, not only to welcome the 
Secretary, but to preface the hearing by noting that you have 
decided not to seek reelection. There will be time in other 
forums to address the issue at greater length, but I do want to 
publicly indicate that I believe this country is a lot better 
off because you have served in this body. And I, in particular, 
as a member of the minority party, appreciate the trust you 
have shown in myself and the other members of our side and the 
fact that you have and continue to bend over backwards to be 
more than fair. You have been a gentleman, and I do respect 
your decision, hope it is great for you, personally, but we are 
going to miss you. But we are going to have a lot of fun in the 
meantime.
    Mr. Callahan. We still have 9 more months to do all of 
the----
    Mr. Visclosky. We have got a lot of time. [Laughter.]
    Mr. Callahan. And it is not an obituary. [Laughter.]
    You know, I just suddenly woke up one morning and 
discovered that there is a real world out there, and I am going 
to go back and get in that real world, but thank you for your 
comments, Pete.
    Mr. Secretary.

                 Opening Statement of Secretary Abraham

    Secretary Abraham. Mr. Chairman, let me begin just by 
echoing Congressman Visclosky's remarks with respect to your 
service. We have worked together for I think over 10 years now 
in different roles that I have had, and you have been here in 
the House, and I have appreciated your kindnesses, as well as 
your abilities in all of the projects that we have worked on. I 
have particularly, come to admire them during the last year 
when we have worked together in this process, and so I just 
want to say best wishes, but also thank you for tremendous 
service to our country. I look forward to the year ahead, 
though, and continuing to build on the success we have had to 
date.
    Mr. Callahan. Thank you, Mr. Secretary.
    Secretary Abraham. Today, I would like to just do two 
things. First, is to submit a fairly lengthy statement 
outlining our budget, and then maybe devote a little bit of 
time to just kind of giving an overview here of the budget of 
the Department and then obviously look forward to answering 
questions from the Members.
    As a member of the Senate, I joined a lot of my colleagues 
in raising serious questions about the operation and the 
management of the Department of Energy. Certainly, during my 
confirmation and initial appearances afterward was asked a lot 
about those views I had expressed during my previous role in 
the Senate and how I was going to adapt to the role here.
    When I was asked by the President to lead the Department, I 
knew very well that the first task would include a 
comprehensive management reform effort, and I think that our 
2002 budget reflected that need. As you will recall, last year 
I described our first budget, given the brief time frame we had 
to put it together, as a transition from what had been 
inherited to where we wanted to head in the budgets of 2003 and 
beyond. We had made it very clear that we were not going to 
make major financial commitments to missions and programs which 
might, after serious review, already achieved their goals or 
were in need of restructuring.
    So, during the last 12 months, a major part of our effort 
has been to try to address some of that analysis. We clarified 
the Department's mission and set in motion a process that I 
think will change the way Department does business. We 
performed a very clear-cut, no holds barred review of our 
Environmental Management and Energy Efficiency and Renewable 
Energy programs.


                      STRATEGIC MANAGEMENT REVIEWS


    We are performing a strategic management review of the 
entire Department, and we participated in the Administration-
wide interagency process for national energy policy 
development, the nuclear posture review and the deterrence and 
nonproliferation review, which was conducted by the National 
Security Council.
    Each of those policy and management reviews has helped to 
shape this year's budget in significant ways. There are two 
years where we have not yet had the ability to conduct that 
kind of analysis. In our Fossil Energy program and in our 
Science program, our top leadership, literally, just came on 
board. This week our Director for the Office of Science was 
finally confirmed by the Senate. Our Assistant Secretary for 
Fossil Energy was confirmed just a couple of weeks ago. But 
reviews in those areas will now commence so that in the future 
we can, I think, present both this Committee and 
itscounterparts with an even stronger outline of future direction and 
support for the programs we are endorsing after reviewing them more 
thoroughly.
    To ensure that the Department understood the importance of 
the management reforms that I have talked about, I spoke to our 
top managers last October about the mission and priorities of 
the Department. One of the questions and concerns that has been 
raised by Members of both Houses and I think by people more 
broadly had been that the Department, because it had been a 
combination of so many previous agencies, did not have a clear-
cut mission.
    And so with an emphasis on measurable performance 
objectives and accountability, I am now holding all managers 
responsible for ensuring, first, that we adhere to a mission 
that primarily focuses on national security, that we ensure the 
safety of our employees, respecting and ensuring that the 
highest standards of security will be followed, and to try to 
build a culture in which merit determines promotion and 
diversity is viewed as key to recruiting and retaining the best 
people. We have consistently emphasized those points in my 
meetings with employees throughout the complex.
    Let me just say that those reviews and studies took place 
during a very unprecedented year in our Department, beginning 
with the energy challenges and energy supply shortage in 
California, then the natural gas and gasoline price spikes 
which we had early in the 2001 calendar year, followed by the 
attacks of 9/11, and the many other issues that have arisen.
    I want to say that I think, in the face of many very unique 
challenges this past year, the men and women of the Department 
of Energy have performed their jobs superbly. It has been a 
very challenging time, and I have come to have a tremendous 
amount of respect for the people in this agency. Often times, 
because of challenges that occur in the political context and 
in policy clarity context, the people that work in these 
agencies get perhaps tarred with a negative brush that they 
themselves do not deserve. I can tell you that the people in 
this agency have risen to a lot of challenges.

                    FISCAL YEAR 2003 BUDGET REQUEST

    Let me just talk a little bit about the budget. Our budget 
request totals $21.9 billion, which is an increase from last 
year of about $580 million. It is about a 16-percent increase 
from the 2001 budget levels or $3 billion higher than it was at 
that time. It is the largest amount ever requested for the 
Department. If you do not include the Fiscal Year 2002 
Supplemental, our increase actually then is nearly a billion 
dollars over the enacted 2002 levels.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

    I would like to mention several specific areas within the 
budget to highlight some of the direction we hope to take. 
First, in terms of national security, we are requesting just 
over $8 billion for the National Nuclear Security 
Administration, the agency which, as you know, is charged with 
maintaining our nuclear stockpile, conducting a variety of 
homeland security missions, supplying nuclear propulsion plants 
to the Navy, and conducting our global nonproliferation efforts 
among others in that $8-billion plus budget.

                           WEAPONS ACTIVITIES

    We are requesting $5.9 billion for weapons activities, 
which constitutes about a $300-million increase from last year. 
That request was shaped by the nuclear policy review which set 
out the role of the nuclear forces, and our nuclear forces for 
the next 5 to 10 years. Here our highest priority is to ensure 
the readiness of our weapons through maintenance design, life 
extension and manufacturing. We are also concerned about 
serious maintenance and modernization backlog at our weapons 
facilities, so we are requesting a 23-percent increase over 
last year's level to begin to correct what I think is a very 
serious infrastructure problem.
    I have had the opportunity to visit a number of our sites 
during this past year. Whether it is the site in Congressman 
Wamp's district at Oak Ridge, where clearly we have major 
infrastructure problems just through aging of facilities or 
other sites, this support is needed.

                            NONPROLIFERATION

    With respect to nonproliferation and related activities, we 
are requesting over $1.1 billion, which is the highest amount 
at which these programs have ever been funded. Here we are 
working closely with the White House to improve 
nonproliferation efforts, especially as they concern 
initiatives with Russia.
    Meetings which took place last November between Presidents 
Bush and Putin, as well as my own ongoing meetings and dialogue 
with the Russian Minister of Atomic Energy, Aleksandr 
Rumyantsev, have I think accelerated, and perfected, and 
expanded measures on nuclear material security and 
accountability, and I am very pleased with the progress we have 
made. We had meetings in November that were very fruitful and 
have not only built a strong relationship between our agencies, 
but cleared away a variety of issues that had made it more 
difficult for us to make progress in these areas.
    Specifically, we are asking for $800 million to support our 
nonproliferation programs with Russia, which is a $115-million 
increase over the 2002 appropriated level.
    The Department is also on the cutting edge of homeland 
security. Chemical and biological agents we developed, for 
instance, were used to rid Capitol Hill buildings of anthrax. 
We have requested a $283-million component of our 
nonproliferation program for nonproliferation R&D to continue 
that kind of research.

                             NAVAL REACTORS

    Finally, we are requesting over $700 million to maintain 
the outstanding Naval Reactors program, which supplies the 
nuclear propulsion plants for submarines and carriers on 
station around the world.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    Moving to energy programs, let me talk about those. 
Obviously, given all that has happened in the energy markets, 
this has been quite a remarkable year. We believe our national 
energy plan addresses those challenges which we face and will 
face and help build a strong foundation for energy security in 
the future. In this respect, we are requesting nearly $2.4 
billion to support the President's energy plan, with 
investments in today's, as well as tomorrow's, energy sources. 
Let me just touch on a few of those.
    As a result of one of the top-to-bottom reviews I 
referenced earlier, the one on our Energy Efficiency and 
Renewable Energy programs, we are making a significant 
investment, $1.3 billion, in those areas to develop diverse 
sources of energy that are abundant, affordable and clean. If 
Congress accepts this proposal, it will be the largest amount 
of funding these programs have received in over 20 years.
    In the process, I challenged the Department's EERE Division 
to take a bolder approach to their work. I asked them to 
concentrate the Department's efforts on programs which can 
revolutionize how we approach conservation andenergy, to 
leapfrog the current status quo and prepare for a future that, under 
any scenario, is going to require a real revolution in how we find, 
produce and deliver energy.
    One of those areas is hydrogen. Hydrogen fuel cells promise 
zero-emission automobiles and a path to much greater energy 
independence in the future. To that end, we are requesting $150 
million to develop a hydrogen fuel-cell vehicle under a program 
we have announced called FreedomCAR.

                             NUCLEAR ENERGY

    Within our energy programs, we are also looking to maintain 
and expand the use of nuclear power. We think it must remain an 
important part of the energy mix, but we also must ensure its 
long-term safety.
    The program which we fund substantially in this budget is 
our Nuclear Power 2010 initiative, which has the goal, among 
other things, of looking for new reactor designs that are safer 
and to work to try to address some of the challenges we have in 
the siting and the development of the processes toward the 
licensing of facilities. The $38 million program will include 
pushing design completion and looking to ways to enhance 
security and safety.

                        ENVIRONMENTAL MANAGEMENT

    Mr. Chairman, the Environmental Management Division of our 
building is one of the Department's most important and 
challenging tasks. When I came into office, and I think I 
talked about this here, I was presented with the old plan for 
cleaning up our weapon sites, which called for a time table of 
70 years to complete at a cost that was estimated roughly at 
$300 billion. I think this Committee agreed with me at the 
time, and would do so again today, that that is not very 
impressive. That is not good enough.
    At the time, I asked a simple question: Do we follow that 
course or do we seek change? And I answered it, at least for 
myself, by saying that we must change, and the change begins 
with some very serious study of the program. So we moved ahead 
to review this program and to develop a new plan to more 
swiftly clean up serious problems at our sites and to reduce 
risk to human health, safety and the environment.
    On the basis of this review, we are requesting over $6.7 
billion for this program in the Fiscal Year 2003 budget. Our 
Under Secretary, Bob Card, who is here with me today, and our 
Assistant Secretary for Environmental Management, Jesse 
Roberson, who conducted this top-to-bottom review, have had 
great experience and success working at our Rocky Flats program 
over the last number of years.
    As the Committee will remember, back in the 1990s, that was 
slated to be a 70-year, $37 billion clean-up plan. It is on 
target to be completed, in fact, by the year 2006, at a cost of 
about $7 billion. The goal of our top-to-bottom review is not 
only to analyze all of the sites, but to try to determine how 
we could move more effectively to address serious risk problems 
at our sites.
    This budget has two categories; one is for basic funding at 
every site, and the second, an $800 million expedited clean-up 
account, out of which those sites who agree to participate in 
the new plan to expedite clean-up at their facilities would 
receive additional funds to fast track clean-up. This initial 
$800 million expedited clean-up account represents a current 
estimate, and I emphasize estimate, of the number of sites 
which we hope will work with us to come to an agreement to move 
to new clean-up approaches this year.
    However, and I want to emphasize this for the Committee, we 
are ready to expand this account with more money in the Fiscal 
Year 2003 budget, should sufficient sites agree to move to 
expedited schedules to justify it. I am happy to inform the 
Committee that, yesterday, Under Secretary Card and officials 
in the State of Washington have reached an initial agreement 
which has been endorsed in a Letter of Intent between the 
Department and the State of Washington to move to an expedited 
schedule for the Hanford site, one of probably the most 
challenging of our clean-up projects in the entire Department.
    By reaching this agreement, we are now moving to several 
stages that will ultimately result in a very specific set of 
changes to the clean-up approach there. The agreement was 
reached with very close cooperation with the Governor, with the 
Attorney General, with the congressional delegation and the 
Senate and House. And to give you a sense of what we think this 
agreement can help lead to, that site was one of the sites 
targeted for clean-up completion somewhere in the range of the 
year 2070.
    We believe that moving in the direction which we are now 
outlining and which Washington has now agreed with us on, we 
would be able to reduce by somewhere between 35 and 45 years 
the time table for completion of that clean-up so that it could 
be done somewhere in the range of the year 2025 to 2035. That 
means tremendous savings because we will not have long-term 
overhead security maintenance costs, but most importantly, it 
means the people who live in these communities do not have to 
wait until their great grandchildren are in school to have a 
community that has actually remediated its environmental risks. 
We think it is the kind of approach that can work across the 
board.

                                SCIENCE

    Finally, let me just discuss our science programs, which 
are, I think, a story of immense accomplishment and vast 
promise. Sixteen Nobel Prizes to 27 physicists have been 
awarded to DOE-funded research. We are the third-largest 
Government sponsor of basic research, and we lead the pursuit 
of the basic understanding of matter and physical science. To 
that end, we are requesting $3.3 billion for science in the 
Fiscal Year 2003 budget. These funds will support core 
programs, while we try to carry forward a comprehensive 
management review, as I alluded to earlier in this area. 
Following that review, I think we will be in a better position 
to consider program and budget changes for the future.
    So, Mr. Chairman, in summary, I believe the Department is 
poised to increase its contribution to homeland security, to 
enhance deterrence and to build a stronger foundation for 
energy security in the 21st century. Our Fiscal Year 2003 
budget request I think sends a good and strong message that we 
have begun the process of making the kinds of changes which I 
think the members of this Committee and your counterparts have 
asked us to try to undertake. I appreciate very much the 
support we have had and appreciate your listening to me today 
ramble on here a little bit too long, perhaps, but I think to 
tell a good story about progress that is being made.
    Thank you.
    [The statement of Secretary Abraham follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Mr. Callahan. Thank you, Mr. Secretary.
    It is good news that you seem to think that there is a 
Letter or there is a Letter of Intent or Letter of Agreement on 
file that Secretary Card has negotiated. In your proposal, you 
indicated you were putting $800 million in a reserve. Are you 
at a point where you can discuss that Letter of Intent?
    Secretary Abraham. Well, I think that Secretary Card is 
actually here. Perhaps, if you would like, he could or I can 
give you some of the highlights.
    Mr. Callahan. I just wondered. If you are in negotiations, 
I do not want you to give away your hand or to disrupt your 
negotiations, but it is good news that you have reached a 
tentative agreement and that you will expedite that process as 
a result of that agreement, hopefully, but I wondered, out of 
the $800 million, what it cost you.
    Secretary Abraham. Let me reiterate my point about the $800 
million. When we worked closely with the Office of Management 
and Budget to develop a way to expedite clean-up, what we 
agreed was that at all of our sites there was a base program 
that would maintain safety and security of the sites so that no 
additional problems might ensue. That we estimated and have 
budgeted at $5.9 billion.
    We then said, look, we would like to go into every site and 
move them from the slow track to the fast track on a site-by-
site basis, and we obviously needed to try to estimate how many 
sites might come to an agreement. We concluded it was hard to 
do because we had not engaged in negotiations yet. We chose a 
number as an initial allotment for the expedited clean-up 
account of $800 million, but we are prepared to support a 
higher amount if more sites than we estimated come to 
agreements.
    The Hanford site alone, though, because it is the largest, 
is contemplated to exceed $400 million, and thus a big part of 
the initial $800 million.
    Mr. Callahan. That is in a 1-year period?
    Secretary Abraham. That would be for the Fiscal Year 2003 
period or budget cycle.
    But just to give the Committee some context here, if people 
move to this approach, to a faster clean-up approach, that 
means doing more things sooner so that we can complete them 
sooner, so that after they are completed, we do not have the 
ongoing overhead of maintaining a site in some state of semi-
completion. So we would envision that, as this agreement takes 
final shape over the next couple of months, that it would be a 
very predictive road map for funding at Hanford, at least 
through the 2008 budget cycle, and that we would be talking 
about very significant increases in that site's clean-up 
programs, which would necessitate higher budget amounts in the 
ensuing years so that we can, in fact, get much more of the 
high-risk problem taken care of sooner.
    So that is the approach. As I said, the Hanford amount I 
think is about $433 million beyond the base amount that we were 
planning to fund. It would take Hanford's total budget for 
Fiscal Year 2003 to slightly over $2 billion.
    Mr. Callahan. How would that $400 million be spent? I mean, 
what would happen in 2003?
    Secretary Abraham. Among the things that this would 
accomplish would be an acceleration of retrieval of high-level 
waste from storage tanks and clean-up of the Columbia River 
corridor, which is adjacent to the site. It would improve the 
capabilities of the waste treatment plant to accommodate more 
waste.
    I do not know if Under Secretary Card might want to make 
some comments here about some of the specific 2003 components 
of it, but we would be glad to share those.
    Mr. Card. A key part of it is to continue funding of the 
vitrification facility that is already underway. That perhaps 
is half of it, but I think the Secretary hit on the key things. 
We want to move the plutonium out of Hanford quicker so that 
the plutonium finishing plant will be done before Fiscal Year 
2008, hopefully, much before that; and accelerated movement of 
spent fuel will be a key project.
    Mr. Callahan. Where are you going to move it to?
    Mr. Card. Well, part of that is in the MOX Disposition Plan 
for Hanford. I do not think we have announced yet what we are 
going to do with the balance, but we have a strategy for 
dealing with it which is under study right now.

           ENVIRONMENTAL MANAGEMENT CLEANUP REFORM COMMITTEE

    Mr. Callahan. How much would you spend if you did not reach 
an agreement at Hanford? What would the 2003 numbers be if you 
did not spend any of the $800 million? If you did not have an 
agreement, what would it cost to operate Hanford?
    Secretary Abraham. We would spend $1.6 billion.
    Mr. Callahan. So, instead of $1.6 billion you are going to 
spend $2 billion?
    Mr. Card. A little over.
    Mr. Callahan. And as a result of that, physically, are you 
going to actually begin the expediting process? I mean, what 
are they going to do with the $400 million?
    Mr. Card. Well, again, a big part of it will be for 
treating tank waste, but the key thing that we are trying to 
drive toward in a multi-year process is that by the end of 
Fiscal Year 2008, we would have really a fundamentally 
different risk posture at Hanford, with the key projects on 
what is called the central plateau and the river corridor 
largely wrapped up and moving on with stabilizing the tank 
waste in the new treatment facilities as an ongoing operating 
exercise with a substantially lower funding commitment at that 
time.
    Mr. Callahan. I am going to leave this to your 
professionalism and great wisdom to resolve this problem, but 
my wife would have a difficult time explaining this concept to 
me if I was complaining about the fact that she was spending 
too much money and not getting enough for it, and her response 
was, ``give me more money.'' I just wonder, and she is going to 
spend it faster because 20 years from now she will not have to 
spend--I know that that is a poor example, but I just----
    Secretary Abraham. Mr. Chairman, let me elaborate to 
perhaps try to address that. During the conducting of this top-
to-bottom review that Secretary Card and Assistant Secretary 
Roberson completed, they learned that throughout the complex we 
had the same kinds of challenges that they had seen, and worked 
on, and solved at Rocky Flats, which was that the slow pace of 
clean-up and the slow targeting of projects meant that each 
year about two-thirds of the actual money spent at sites was 
really being spent on overhead, whether it was security, 
maintenance, fencing off areas, just keeping things from 
getting worse, and one-third was being spent on highly 
productive, faster, actual remediation of problems.
    So, when we learned that the same problem that they had 
seen at Rocky Flats essentially existed throughout thedifferent 
sites, we said why do we not want to take the same approach we have 
done at Rocky Flats? Instead of taking a problem, and I do not mean to 
simplify this too much, but instead of taking a problem, whether it is 
tank waste or it is underground buried waste, and only doing an 
incremental amount of clean-up of that each year for 70 years, why not 
clean it up more quickly so that once it is cleaned up you do not have 
to spend all of the additional annual budget.
    Mr. Callahan. I know where you are going, and I certainly 
support that, Mr. Secretary. The point is that is the message 
they should have been getting all along. I mean, they should 
have been doing everything they could possibly do to, and I 
suppose they are under contract to do just that. We are saying 
that the contracts that were in existence before you came did 
not encourage the more rapid clean-up and ultimate long-term 
savings? We do not need to belabor it any further, I am just 
having some difficulty.
    I agree with your incentive to do whatever it takes, but I 
wonder why we have been spending $1.6 billion or you want that 
much for them to do what they are supposed to be doing anyway, 
and now we say we want to give them $2 billion for them to do 
what they are supposed to be doing anyway. I just, I have some 
difficulty in grasping that, although I applaud you for doing 
something to get these people on track.

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Secretary Abraham. Well, if I could, just to again give it 
a little bit more context, your reaction was the same as the 
one I expressed to this Committee last year. Why are we putting 
all of the sites on a 70-year clean-up plan? In the case of 
Washington, as I think you know, there had been in place for a 
number of years a so-called tri-party agreement, which set 
milestones in terms of things that had to be accomplished by 
certain dates.
    Over the course of that agreement, 150 milestones had 
increased to 950 milestones, largely based on local regulatory 
requirements and requests that kept mushrooming. Fulfilling the 
milestones became the goal more than finishing the job of 
getting all of the clean-up work done, and so I think it has 
consumed them, and similar kinds of challenges at other sites, 
it seemed to me, had become, frankly, a way of life, as opposed 
to the actual clean-up being the principal goal. There are a 
lot of local and State regulatory agencies involved, and trying 
to make sure that we addressed their concerns was also a 
challenge for the Department.
    I just think that we have proven at Rocky Flats that you 
can take a program like this and move it from a slow track to a 
much faster one, and we want to try to do that at the other 
sites. Now, admittedly, in the short run, that will cost more 
money because we want to clean--if you have a problem in your 
own backyard, I do not think any of us would say, let us clean 
it up over 70 years, with one-seventieth of the clean-up 
happening each year. You would clean as much of it up as 
quickly as you could, especially focusing, as we will, on the 
highest risks.
    We found, in a number of these cases, the high-risk 
problems were not being cleaned up at any faster pace than 
other problems because there had been agreements entered into 
many years before that kept us on track, where we were more 
focused on satisfying the agreements than on dealing with risks 
on the basis of their intensity. So that is what we are trying 
to do.
    Mr. Callahan. I know what you are trying to do, but I just, 
you know, sometimes we have to answer to constituents when they 
say why would you give them, I mean, $400 million is a lot of 
money. And if they were doing what they should be doing and 
your predecessors had encouraged them, like you are encouraging 
them, some of these places might already be cleaned up, but 
anyway, I applaud the direction.
    Secretary Abraham. Like I said, in the Rocky Flats' 
experience, we will pretty much finish the work there, in the 
year 2006. The budget request for Rocky Flats this year, based 
on this expedited clean-up is about $600 million, and it is 
going to stay at a pretty consistent pace until it is done. The 
good news will be that in 2007, the amount for Rocky Flats will 
be deminimis, and that is what I would like to see happen at 
some point at all of these sites, and not 70 years from now.
    Mr. Callahan. We have a journal vote. Pete, do you want to 
go ahead and question or do you want to----
    Mr. Visclosky. I prefer to go vote.
    Secretary Abraham. I will be here.
    Mr. Callahan. Why do we not just recess temporarily?
    [Recess.]

                        NUCLEAR WEAPONS PROGRAMS

    Mr. Callahan. Another $100,000 of taxpayer money wasted on 
a journal vote. [Laughter.]
    Mr. Visclosky.
    Mr. Visclosky. Mr. Secretary, thank you again for being 
here and for the job you do.
    I have a number of questions on the nuclear weapons 
programs and do have a concern, I must tell you. First I would 
want to discuss the duplication of effort in the nuclear 
weapons area. Under the budget submission, we are developing an 
alternative to testing, that is, the NIF program; we are 
increasing our readiness in the event we go back to testing 
which would, by my way of reckoning, make NIF obsolete; and we 
are also maintaining an inactive stockpile in reserve.
    I guess my lead question, besides my concern about that 
duplication, is, is it the Department's intent to maintain all 
of the current weapons in the stockpile instead of dismantling 
inactive weapons?
    Secretary Abraham. As you know, President Bush and 
President Putin have been in discussions about President Bush's 
announcement of dramatic reduction in the active stockpile. The 
issue has not been resolved yet as to the disposition of 
weapons that would be taken out of the active stockpile. 
Clearly, if the decision at some point is made to dismantle 
some or all of those, then that affects very dramatically what 
we do at the Department because we have a very major role in 
that process, but that decision has not yet occurred. Once it 
has, then I think that obviously would drive policy with 
respect to the emphasis on the budget, whether it would be 
toward more money for dismantling and disposition.
    Mr. Visclosky. Any sense that that decision might be such 
and forthcoming where it would have an impact on 2003?
    Secretary Abraham. I cannot say that it will at this point. 
I just do not know what the timing is. I have not been given 
any guidance yet to indicate that it would be affected in the 
Fiscal Year 2003 budget because I think some of it is still 
subject to a lot of analysis, as well as the ongoing 
discussions that are occurring at the StateDepartment and 
elsewhere.
    Mr. Visclosky. It would be a detailed answer, and so I will 
ask it for the record if you could submit the costs associated 
with the required infrastructure, as far as the inactive 
weapons system.
    Secretary Abraham. Okay.
    [The information follows:]

                       Active/Inactive Stockpile

    Weapons in the nuclear stockpile, whether active or 
inactive, are maintained to fulfill national security 
requirements. The number of active and inactive weapons has not 
yet been determined and cost-benefit tradeoffs will be done as 
we work with the DoD to determine these stockpile quantities.
    The costs of maintaining the different warhead types within 
the inactive stockpile will vary according to the specific 
readiness state required for that weapon. The greater the 
weapon's role in the responsive force, the higher the readiness 
state NNSA will be required to support it at, and the more 
resources that will be required to do this.

                 BUDGET JUSTIFICATION BY WEAPONS SYSTEM

    Mr. Visclosky. That would be terrific.
    Mr. Secretary, last year the conferees of the subcommittee 
also directed DOE to include, and I am quoting now, ``to 
include detailed information in the budget justification 
documents for its fiscal year 2003 and subsequent President's 
budget request to Congress by weapons system.''
    On Page 44 of the justification, there is a one-page table, 
but from my reckoning, that does not meet the request and 
requirements that the subcommittee asked for. Do you have a 
comment?
    Secretary Abraham. Let me tell you what we are trying to 
do, and I appreciate the request. It is not something that has 
been treated with a lack of appreciation or desire to satisfy. 
Here is the challenge that we have, let me put it this way.
    We had, in this first effort, a challenge because a lot of 
the costs that are associated with specific weapons can be 
detailed, and we have done that here. This chart which you see 
I think represents situations where specific costs can be 
assigned because they are directly for a particular weapon. We 
have a lot of other costs which are functional in nature that 
are the functions in our campaigns program and so on, where the 
costs must be somehow allocated between weapons to I think try 
to satisfy a complete analysis, and we have not yet perfected 
the ability to segregate those costs in a fashion, other than 
to arbitrarily pro-rate them between the different weapons 
systems. These would be the overhead costs of facilities and 
things of this sort.
    Now we are not going to leave it at that stage. And in 
response to this request, which I might say also has come to us 
from OMB, we are trying to this year, both at their request and 
also to do a better job, a more accurate job, to determine how 
to allocate these functional costs, these kinds of multi-
weapon-related costs, and to assign some part of each to the 
different weapons that they affect.
    I do not think, it is going to be precise, but we are going 
to try to do as good a job as we can in this process, both to 
give the Committee even more information on it as well, because 
we have, I guess, always in this Department allocated costs on 
a function versus a weapons systems basis. In trying to make 
this transition, we want to do it right. This represents very 
accurate costs as to things that can be directly attributed to 
each weapon, but we are trying to perfect that for these costs 
that do not align themselves to that kind of attribution.
    Any guidance the Committee wants to give on this, as to 
what would meet a threshold, would be helpful to us as well, 
because we are trying to get that from OMB. But for the Fiscal 
Year 2004 process, we are already in the planning stage of 
trying to go beyond the directly assignable costs.
    Mr. Visclosky. Mr. Secretary, one observation I would make 
is that, since it is a Defense function, it is my understanding 
we ought to have a 5-year projection, as opposed to simply 
figures for 2003.
    A second observation and I would leave it to the discretion 
of the Chair, deals with the exact detail breaking out the 
weapons system. Because you are right, you are making a 
transition from a function to system, but I also think the 
difference is a very important one, and the request was made 
because of the concern I, and I think other members of the 
subcommittee, have about possible duplication.
    Secretary Abraham. Right.
    Mr. Visclosky. But then, also, obviously looking in the out 
years, as far as the expenditure per system, matching that up 
in DOD terms with delivery systems.
    Secretary Abraham. Right.
    Mr. Visclosky. And so I think it would be important, and 
again at the chairman's discretion, you might want to provide 
additional detail as to what we would be looking for.
    Secretary Abraham. That would be fine, and I think maybe we 
could even have at staff level perhaps some discussions about 
how we might apply some standards. What I would not want to do 
is to start making some semi-arbitrary assignments of cost and 
learn that the Committee might have a preferred way of doing 
that. So let us work together on that.

                COORDINATION WITH THE DEFENSE DEPARTMENT

    Mr. Visclosky. Mr. Secretary, a last question on this round 
would be, if you could, just discussions you have had with DOD 
officials, Defense Department officials, as far as coordination 
between the two departments, as far as what the out years look 
like, what the needs will be, as far as the weapons systems, 
how they will match up with potential delivery systems. 
Because, again, money is tight. We want to make sure we do the 
right thing here, so we do enhance our national security.
    Secretary Abraham. Right.
    Mr. Visclosky. But we have to watch every buck here because 
there are only so many dollars.
    Secretary Abraham. It is an interesting transition to go--
--
    Mr. Visclosky. And you would not want to do it for asystem 
that you are not going to anticipate using.
    Secretary Abraham. Right, to go from the Member side to the 
spender of this table here, I am trying to make sure I keep in 
mind every day the responsibilities we have to spend these 
dollars as assigned and efficiently.
    What we have tried to do this last year, was to, first, 
develop the nuclear posture review (NPR), a long-term policy, 
and then to try to translate that into responsibilities by 
department. Obviously, now that we have finished that initial 
effort with the NPR, it is reflected here.
    Some of the work had been done by General Gordon and our 
National Nuclear Security Administration (NNSA) folks prior to 
that, with regard to things like the infrastructure issues that 
I mentioned earlier, but now with respect to the weapons 
system, the longer term weapons system needs and the role of 
DOE in that regard, I think we have a lot more substantive 
basis on which to make the requests we are doing, and that is I 
think reflected in the budget here.
    Mr. Visclosky. I do appreciate the general's obligation, 
but in the end I have a great deal of respect for you, and you 
are Secretary of Energy and want to make sure that you are 
intimately involved in those discussions.
    Secretary Abraham. We are.
    Mr. Visclosky. Thank you, Mr. Chairman.

              REDUCTION OF DEPLOYED UNITED STATES WARHEADS

    Mr. Callahan. Before we go to Congressman Frelinghuysen, as 
I understand your answer to Congressman Visclosky, the 
agreement that the President reached with President Putin was 
to reduce the deployed U.S. warheads from 6,000 down to about 
1,700.
    Secretary Abraham. Well, 1,750 to 2,200.
    Mr. Callahan. Yes, or 2,000 or 2,200. And that President 
Putin announced a two-thirds reduction to approximately 1,500. 
Is Putin talking about warheads, and we are talking about 
delivery systems?
    Secretary Abraham. We are talking about, I think, active 
warheads in our system. I cannot speak for the negotiations at 
this point. I think that the status----
    Mr. Callahan. Is your understanding that we are going to 
maintain a 6,000 level of warheads?
    Secretary Abraham. No, I think the idea is that we will, 
first, commit to have a reduction in terms of active warheads.
    Mr. Callahan. Does active mean deployable?
    Secretary Abraham. Deployed, I think, and I think there 
remains an analysis to be conducted as to what those weapons, 
you know, the disposition of those weapons that would be taken 
out of active status.
    Mr. Callahan. So we would have, at the end of this process, 
say, 1,750 warheads on delivery systems, deployable warheads.
    Secretary Abraham. Right.
    Mr. Callahan. And then we would have 3,300 or 4,000 sitting 
over here that could be replaced on some delivery system; is 
that your understanding?
    Secretary Abraham. My understanding is that what the 
disposition policy will be with regard to those taken out of 
active status remains to be resolved. Whether all of them or 
some of them would be dismantled or would all remain on some 
sort of inactive reserve status, I do not think has been 
determined yet.
    Mr. Callahan. Do you know if the Russians have determined 
what they are going to do with theirs?
    Secretary Abraham. No, I do not know.
    Mr. Callahan. Mr. Frelinghuysen?
    Mr. Frelinghuysen. Mr. Chairman, I would be happy, with 
your permission, to yield to Mr. Wamp. He was here before me.
    Mr. Callahan. I am sorry, Mr. Wamp. You better be nice to 
Mr. Frelinghuysen. [Laughter.]
    Mr. Wamp. I understand he is already showing the grace of a 
Cardinal, is he not? [Laughter.]

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Mr. Wamp. Mr. Secretary, I probably will have questions in 
three or four rounds, depending on how far we go, but I want to 
start back on the issue of clean-up and ask a specific question 
for the record here today as our staff looks at this $800 
million proposal because I think it is a bold move, it is a 
needed move. Frankly, we have got to get a better grasp on the 
clean-up and expedited procedures. And being a site that can 
still improve, but that gets a lot done, in Oak Ridge, we are 
optimistic about this $800-million program.
    But the one thing I want to talk about today is kind of a 
practical issue for our staff and for this committee, as we 
head into this appropriations process. Because when you create 
a new $800 million program of any kind, and you know because 
you were a Senator, Senators have a way of trying to fence that 
money off and earmark it for their particular State through 
this whole process.
    I just want you to respond today on the record with what I 
have heard in my office, as I met with your very excellent team 
on this issue, that these decisions and the plans for the 
expedited proposal should be made at the local level by the 
professionals, based on the presentation of how they can 
expedite the clean-up, working with your field office and the 
contractors to come up with a plan. And that plan should be 
based on merit and not politics, and through this process, we 
need to avoid the potentiality of at the end of the day this 
money being earmarked in directions that agreements have not 
been reached on, based on the merits of the particular 
application.
    Will you speak to that issue for me and our staff, please?
    Secretary Abraham. I could not have said it better myself.
    As I said, in describing the program, what we are trying to 
do with the so-called expedited clean-up account funds, both 
the $800 million we are requesting and additional money we 
might, based on the development of plans at more sites than we 
estimated would happen in the first year here, is to go into 
the community, to go to the sites based on our top-to-bottom 
environmental management review, and begin a discussion from 
that point of what we think is an appropriate way to expedite 
the clean-up at a particular site.
    We are not going to support using money from that fund for 
something that is not part of an agreement we have come to. It 
will be based on the criteria we have set of addressing the 
highest, most serious risks more quickly, and properly 
ameliorating the remaining lower level risks with the site. And 
we are not going to come to this Committee or to its 
counterpart and acquiesce to suggestions the money ought to be 
given to a site because anybody thinks it oughtto go there. It 
has got to be part of this kind of very thorough, local decision-making 
process.

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Mr. Wamp. Secretary Card also talked about, for instance, 
using the Hanford model, since we apparently have a Letter of 
Intent there, we are moving in the direction of an agreement 
with the State of Washington, and a 2008 goal of really having 
progress to be able to show the American people here. But do 
you see that requiring statutory language on an ongoing basis, 
through the appropriations process, to show the next Congress's 
appropriators that this agreement has been funded for the 
purposes of carrying us forward?
    I think that is a question we are going to have to resolve 
because, again, I have a site. I am on this subcommittee. We 
reach an agreement in Oak Ridge, Tennessee, and we are going to 
spend a certain amount of money to expedite our clean-up. But 
what is to say in 2007 that they are going to honor the 
agreements that we make today, unless there is some kind of 
statutory language inserted that mirrors the agreements that 
have been reached through this Department of Energy at this 
time?
    Secretary Abraham. Well, we are open to working with the 
Congress on how to provide clearer direction and authorization 
for a plan that would be agreed upon. Right now, there is no 
assurances to any site whatsoever that from one year to the 
next they are going to have funding of a sort they might think 
is appropriate.
    There has been a moral commitment in the case of a couple 
of the sites to bring them to closure by a certain point, but 
to a large extent, this is a lurching process every year, which 
is part of the rationale for what we have been doing in 
developing this new approach is to put predictability into the 
system.
    Mr. Wamp. Amen.
    Secretary Abraham. And so if we agree a site that over the 
next so many years, 6 years, through the 2008 cycle, a certain 
set of programs will now occur, at least in my mind, that would 
drive, and we will certainly, as long as this administration is 
in office, will drive the annual appropriation submission to 
Congress for that site, but there is a responsibility both 
ways. Obviously, the sites have to make a commitment to us that 
they recognize that when something is cleaned up, it is done.
    We have got a mentality, to some extent, out there that 
says if we did not get more money than last year, there is a 
problem, and we have got to go back and fight for it.
    Mr. Wamp. Right.
    Secretary Abraham. But this is clean-up. So, when the 
clean-up finishes----
    Mr. Wamp. The goal is to go out of business.
    Secretary Abraham. Yes, the goal is that next year you do 
not spend money on the clean-up you did last year. It is done, 
I mean, if you finish a project.
    Mr. Wamp. One other word I want to say before I move to one 
other question in this round, but the issue of establishing a 
de minimis standard for what is clean and what is acceptable, 
in terms of contamination, still needs to be addressed. And I 
have spoken with you and Secretary Card about this issue, and I 
just want to raise it publicly again today. Because as we clean 
these sites up, it is still kind of a moving target as to what 
is clean, and these people in the field need to know. That is 
not just DOE.
    We have to have a multi-agency agreement on some de 
minimis, acceptable standard, and right now it is still holding 
up issues of reindustrialization and recycling because we do 
not know what is acceptable based on a reasonable minimal level 
of contamination to be able to reuse the facility or to recycle 
the materials, and we still need to do that, and we need to 
press EPA to get that done, to finish the studies, and as we 
make progress on clean-up to do that.

                               FREEDOMCAR

    I am going to switch gears, and then I am going to come 
back to national security because everything really revolves 
around national security in some way. There are some questions 
I have about programs that do not directly tie to national 
security and where we are going there, and I will get to those 
later, but I want to talk about this transportation piece 
because something you have done is very exciting to me.
    When you talk about the FreedomCAR, and whoever dreamed up 
that name is a genius because actually we have fought wars, as 
Mike Parker told us last week, over energy. We have fought wars 
over energy, and if we are going to be free, we have got to 
make ourselves less reliant on petroleum, and almost of the 
petroleum our country uses is for transportation. And so this 
direction you are going in is very valuable from a national 
security standpoint, from an environmental standpoint, from an 
efficiency standpoint, from a self-sufficiency standpoint.
    I just want to say that in Tennessee we have become active 
in the automotive industry. Just in the last 20 years, we have 
really risen to a national player in making cars, building 
cars, buses, and even emissionless hybrid-type vehicles, and we 
want to continue to do that. And I want you to talk about the 
national aspects of fuel-cell development, and hydrogen and a 
little bit more detail about the FreedomCAR because I really 
think this is something we have not emphasized enough in this 
country.
    PNGV, let us talk a bit, too, about industry's commitment 
to the FreedomCAR versus PNGV because it seemed like industry 
was never, their heart was not really into PNGV. They did it 
because they had to, but I am told that actually industry is 
excited about fuel cells and hydrogen developments.
    Secretary Abraham. Well, I think they are. I think, first 
of all, we have to, just as a starting point, the PNGV program, 
which we have modified and now have launched the FreedomCAR 
program, had a number of components to it, some of which we are 
retaining, and there has been I think a little bit of 
misunderstanding. Some of the research done under PNGV was 
research on hybrids, on components, fuel cells, things like 
that.
    There was a big part of that program, which was the idea of 
trying to work together in some kind of consortium with the 
auto industry, the American automobile manufacturers, to 
develop by the 2004 model year an 80-mile-per-gallon sedan. It 
became very clear to me in the first year I was, I mean, 
actually, it was becoming increasingly clear to me, as a 
Senator from Michigan, that not only were we not going to have 
that vehicle in showrooms, but even if it somehow appeared, 
there was not a market for that vehicle, which normally means 
that it is not going to appear in showrooms.
    So what we have tried to do is to say, look, that project 
is a very costly investment in something that is not going to 
translate into a successful outcome. Let us think about what 
could. And for us the view was that as we continue for a fairly 
lengthy period the investments in the hybrid-type ofoperating 
system, let us try to reduce dramatically the time frame that would be 
involved in bringing a hydrogen fuel cell vehicle and infrastructure 
into place.

                               FREEDOMCAR

    And here the Government role is pretty obvious. You just 
cannot develop these kinds of vehicles and not also develop the 
infrastructure to support them. People might like to have a 
pure hydrogen fuel cell vehicle, but if they cannot get 
hydrogen or they cannot drive somewhere and be certain that 
they will be able to drive back, they will not want it. So it 
is a long-term project. But we think the investment we are 
talking about, which begins, for instance, with a $10 million 
increase in hydrogen research in this submission, that we can 
reduce to somewhere, just with that type of spending curve, 
perhaps as early as 2035 being a target time frame for a pure 
hydrogen fuel cell vehicle to be in existence, and an 
infrastructure to support it. Some have argued it could be done 
quicker, and certainly the extent of our investment will play a 
role in that, and we are only in the first year. As we 
determine what might be possible, then we might try to expedite 
that effort.
    But the goal is pretty clear, if we can get to that stage, 
we would dramatically reduce our need for the importation of 
oil. It would mean that the emissions would be non-toxic--the 
byproduct of a hydrogen fuel cell is water vapor. Clearly, that 
changes tremendously the energy needs of the country.
    So I was just struck, for instance, at our Argonne lab in 
Illinois, when I visited there, that in just 4 years we have 
made great strides. For example, the processing unit that 
extracts the hydrogen from gasoline has been reduced from 
something roughly the size of one of these windows to a 
canister about half the size of a seat in a minivan. So we are 
making pretty good progress on that front. And some hybrids 
obviously are now on the market for electric and gasoline-
powered vehicles. We want to continue that, but we want to try 
to move much more quickly on the development of the hydrogen 
fuel cell.
    Mr. Wamp. East Tennessee wants to be in that business, and 
I am sure that Chairman Callahan's home State would like to be 
in that business as well.
    I will wait until the next round, Mr. Chairman.

                THERMAL ENERGY INTEGRATED POWER SYSTEMS

    Mr. Callahan. Chet, indulge me just a minute. While we are 
on this alternative energy, you know, 50 percent of our energy 
in this country is produced by coal-burning plants. And I am 
not a scientist, but we have been informed that the Department 
has an unsolicited proposal, and maybe this is a responsibility 
I think, since it is fossil fuel, of another committee, as far 
as appropriations are concerned. Nevertheless, I am interested 
because they say the number one contributor to pollution in my 
district is a coal-burning power plant. And if we have a 
technology, which some of your own scientists agree with, that 
would eliminate totally the emission problems of coal, why we 
would not jump on that or is that a pipe dream?
    Secretary Abraham. Well, we are investing, in this budget 
submission to the Interior and Related Agencies Appropriations 
Subcommittee, as that part of our Fossil Energy program, which 
is approximately $325 million in clean coal technology 
research.
    What we are also trying to do is to take the dollars that 
have been in these broadly defined coal programs and try to 
focus them much more specifically on actual electricity 
production from coal burning to meet a much lower standard of 
emission, so that we can keep the coal component in our fuel 
mix. Like you said----
    Mr. Callahan. We do not know, we are not scientists on this 
committee, and you are not either a scientist, but if there is 
a known process to totally eliminate the emission problems of 
coal burning, why would we not be jumping all over this? Why 
would we not have a $400-million incentive program to rid 
ourselves of the dependency of foreign oil? If we can utilize 
coal in such a manner that it would not be damaging to our 
environment, why would we not be jumping all over this?
    Secretary Abraham. Well, we will have to look into it. See 
what the cost is----
    Mr. Callahan. Thermal energy integrated power systems 
technology is the system I am talking about, and maybe if you 
could get someone to look at that and then report back to me. 
Maybe it does not do what they say it will do, but if it would, 
we would be foolish not to investigate and to look at the 
possibilities of eliminating this dependency on foreign oil. If 
you would get back with us on that.
    [The information follows:]

           Thermal Energy Integrated Power Systems Technology

    This technology is at a stage where it probably is ready to 
be demonstrated at a large scale. While the Thermal Energy 
Integrated Power Systems (TIPS) technology is indeed promising, 
it is just one of a number of good ideas that have been 
proposed to the Department. Given that it is simply not 
possible to fund all good ideas, the Department attempts to 
make decisions on project funding through its competitive 
procurement process. One such competitive procurement, which is 
an example of one type of incentive program for this kind of 
technology, was just announced on March 4, 2002--the Clean Coal 
Power Initiative solicitation--which can be downloaded from the 
National Energy Technology Laboratory (NETL) website 
(www.netl.doe.gov). Bidders have 150 days within which to 
submit their proposals. This technology may be eligible to 
compete in this or other soliciations throughout the year, and 
would be evaluated on its merit relative to other proposals.

                        NUCLEAR NONPROLIFERATION

    Mr. Callahan. Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here and all you do. I 
do not think most Americans know the incredible diversity of 
important programs that your agency deals with.
    I would like to focus my comments on the nuclear 
nonproliferation issue in this round. I may follow up in the 
next round. But before I make a few comments, if I could just 
ask that in writing you or your staff send me, with a copy to 
the chairman and members, the status of our work under the old 
MPCA program. I guess now it is going to be called the MC 
program. How many sites have we visited; how many sites have we 
not visited; the sites we visited, what level of work has been 
accomplished there; have we actually, since the September 
agreement of last year, been able to visit new Ministry of 
Atomic Energy sites, if so, how many; and then how many does 
that leave that we have not visited?
    That will help me perhaps better answer the question I will 
ask you in a minute about the reduced funding in the old MPCA 
program compared to last year if you count the supplemental.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                        NUCLEAR NONPROLIFERATION

    Mr. Edwards. Before I do that, I do want to congratulate 
you and thank you for your leadership, along with Chairman 
Callahan's, in plussing-up what I would rather call homeland 
defense against nuclear terrorists funding. I will never forget 
your testimony last year. The day you came the front of the 
Washington Post was that the administration will spend an 
unlimited amount of money for national missile defense at a 
time that you were asked by the administration to defend a 15-
percent cut in our Nunn-Lugar programs with Russia. It made 
absolutely no sense to me then that you were asked to do that. 
It makes absolutely no sense to me now that you were asked to 
do that.
    I know that was not at your urging. I know OMB played a 
role. I hope the bean counters there have gotten the message 
from those in the administration that this is an important 
program for homeland defense. I was still surprised that as 
late as November Dr. Rice was defending the reduced levels of 
funding for nuclear nonproliferation programs with Russia. She 
did not propose massive cuts in national missile defense while 
we were reviewing that program, but used the fact that there 
was a review going on, even after September 11th, to support 
and defend the proposal of reduced funds in that area. I just 
cannot understand that.
    But the important thing is, and I commend the 
administration for this, is looking at the facts, I assume 
listening to you and those within your agency, and realizing 
that, yes, we could spend more money in this area. In fact, 
more importantly, we had a responsibility to do more in 
homeland defense against nuclear terrorism. And I commend the 
administration, despite my 9 months of fighting with them last 
year, the end product is what really counts, and I hope we can 
continue to move, on a bipartisan basis, that important program 
forward.
    I am thrilled, through your leadership, the administration 
this year has made a request for an 8-percent increase for 
defense nuclear nonproliferation. I would like to ask, if I 
could, if you would briefly explain, if you need to put it in 
writing later, in greater depth, fine, but there are about 
three or four areas within that program function that were 
actually reduced. For example, nonproliferation and 
verification research and development are reduced by 12 percent 
compared to the 2002 level; Russian transition initiatives 
reduced by 31 percent; and the International nuclear safety and 
cooperation program category was reduced by 31 percent; and 
then maybe perhaps the one that is most of interest to me is 
the MPCA program, if you count the supplemental, was reduced by 
20 percent.
    Could you briefly explain, despite the overall good news, 
why were those particular programs reduced?
    Secretary Abraham. Sure. Let us begin by just saying that 
the request that we have made actually is greater, as you 
noted, than the cumulative 2002, both enacted and supplemental 
levels combined, for the nonproliferation programs.
    Part of our analysis in putting this budget together was 
taking into account those supplemental dollars and how we would 
apply them, both on the Russian initiatives and transition 
initiatives program, as well as on the Materials Protection 
Control and Accounting (MPC&A), as we called it, and what we 
could legitimately accomplish during the time frame through 
2003, based on where we are now, in terms of agreements, in 
terms of access to facilities and so on.
    The supplemental was very robust in this area, and I think 
it is being put to very positive use. That, combined with 
agreements which we were able to come to, both in September of 
last year and then also in November when I was in Russia and 
met with Minister Rumyantsev of the MINATOM ministry, as well 
as with the Russian Navy, we are expediting, and accelerating, 
and expanding these programs. We will be having follow-up 
meetings I believe it is going to be in May here in Washington. 
We think this reflects what we can get done in those two areas 
between now and the completion of the 2003 budget cycle, based 
on what access we will have as of now, what we can hope to 
achieve in terms of securities and safeguards with that access, 
and based on estimates to date.

                        NUCLEAR NONPROLIFERATION

    I am very pleased, and thank you for your comments, with 
the progress which we have made in the discussions with our 
counterparts. In November, we entered into an agreement and 
announced a joint commitment on our part and Russia's to try to 
accelerate and expand the programs, which means that probably a 
2 to 3 year reduction in the window for the securitizing of the 
various sites that we are targeting will take place.
    It is possible that we might, in the next rounds of 
meetings, be able to build on that. If we do, I am sure we 
would bring to OMB and perhaps then from there to Congress, 
some additional requests that would pertain to the 2003 cycle. 
But as of now, we think this really accomplishes all that our 
current access and capabilities are for this cycle.
    However, and this is important, as we have made these 
agreements, this is something that ramps up. The first year you 
can get so much done, but you build on that, and I think we are 
certainly committed to trying to do these programs as quickly 
as we can in an effective fashion.
    Mr. Edwards. Thank you, Mr. Secretary, and thank you for 
your leadership in this area. I will do follow-up further 
questions today, and maybe perhaps look forward to meeting with 
you or your staff in the weeks ahead.
    Thank you.
    Secretary Abraham. Thank you.
    Mr. Callahan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, you and your colleagues at the Department of Energy.
    In terms of sort of prefatory comments, I am pleased to see 
the increase for NNSA. Also, I share with Mr. Edwards his 
interest in the issue of working with Russia. I come from the 
school where we ignore Russia at our own peril. I am glad we 
are engaged. It may be difficult to explain to the American 
people exactly what we are going through of there and the risks 
involved, but I want to commend you for your initiatives, not 
only with Russia, but with a lot of the newly independent 
republics. Sort of parenthetically, Russia is such a huge 
country, it has so many incredible natural resources, it is a 
frontier that, while we may view them with some apprehension, 
we ought to be engaged not only in terms of monitoring fissile 
materials and things of that nature, but also engaged in terms 
of ways that we could perhaps work with them in developing some 
of those assets.
    Also, I like the whole notion of accelerating clean-
ups,which Congressman Wamp has I think addressed quite well. Of course, 
I wear my fusion heart on my arm. Thank you for those resources. It is 
good to know there are other allies out there.
    I oftentimes hear things never get done. People talk about 
Yucca Mountain, a lot of controversy, a lot of information, 
misinformation, but here again I think the administration has 
stepped up to the plate. We have a horrendous problem out there 
in terms of disposing of nuclear materials. We are not 
suggesting for a minute we are going to put thousands of people 
at risk, but we need to do something. We need a national 
depository. For the longest period of time we have been putting 
billions of dollars in there. Hopefully, at some point in time, 
we can see something coming to fruition.

                          NATIONAL ENERGY PLAN

    So, for all of that, and a lot more, I commend you.
    Last year, when we were meeting here, and we did meet here 
last year, the focus was on higher oil prices, gasoline prices 
going through the roof. I will not say the public has a short 
memory because the public, in some ways, has a long memory, and 
many people are unaware that the House acted in August to adopt 
a comprehensive energy policy, and those who were focused on 
this issue were somewhat largely focused on the whole issue of 
ANWR, which in and of itself could be a discussion for another 
day.
    What are we doing in terms of moving ahead in developing a 
plan, even without any action on the Senate side?
    Secretary Abraham. Well, first of all, I would acknowledge 
things have changed in the last year. Members of this Committee 
were quick to point out to me that every time there was an 
energy problem, the Department of Energy and the Secretary 
would get blamed, and if anything ever got better, there would 
be no credit, which proved to be exactly accurate. [Laughter.]
    But we are doing some things I think to try to implement 
the principles of the national energy plan separate from the 
congressional actions, and I applaud the House for having acted 
last summer. We are hopeful the Senate will finish its work on 
energy in the next week or so.
    But there were 105 recommendations, roughly, in the energy 
plan that was produced. About 80 to 85 of those are ones that 
can be implemented without statutory action because they 
involve issues that relate to things like the undertaking of an 
improvement in the transmission grid in California to relieve 
some of the bottlenecks that have existed between the South and 
the Northern part of the State. I am happy to tell you one of 
our other accomplishments this year is to have put together a 
consortium of private investors who, in fact, are going to 
build what is called Path 15 so that, in fact, there is now 
going to be greater ability to move electricity in that State 
to avert future blackouts.
    A lot of the recommendations pertain to international 
energy matters, to improving our energy trading relationships. 
One, for instance, was a call for us to have meetings of the G-
8 Energy Ministers, so that we might improve the relationships 
there and find mutual programs to work on. We are going to have 
the first such meeting, and the United States will be the host 
of it, in May.
    So a lot of the components of the energy plan, both in my 
Department, but also in other agencies of the Government, are 
already moving ahead, largely, I think undertaken now. The 
remaining ones obviously call for congressional action, and we 
are hopeful that that will happen.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    Mr. Frelinghuysen. Keep us posted. Keep working on it. 
Lastly, there is renewed interest in energy efficiency 
programs, and rightfully so. Obviously, there is a keen 
interest in alternative ways to produce energy. The public 
perception is, and I represent a fairly well-educated 
constituency, that we are not doing a hell of a lot. I think we 
ought to be proud of some of the things we are doing, and I 
think we need to highlight more of what we are doing.
    The chairman makes a point about fossil fuels, 50 percent. 
I mean, there are some things we are doing relative to clean 
coal, but I think we need to talk about energy efficiency and 
some of the things that we are doing.
    Secretary Abraham. If I could just comment, and this is 
something we all need to work on. It is incorporated in part of 
the legislation that was passed by the House, but over the next 
20 years, our Energy Information Administration projects that 
U.S. energy demands will increase by about 75 to 80 percent, in 
terms of gross increase, from the use of about 99 quadrillion 
BTUs of energy per year now to about 170-plus. We think that 
more than half of that, in fact, about 45 quads of energy can 
be offset through improved efficiency over the next 20 years, 
and that is what our energy efficiency dollars are invested in 
accomplishing, whether it is the work we do in our buildings 
programs or the FreedomCAR or others.
    Therefore, a huge amount of the energy increase, the demand 
increase is going to be offset in that fashion, but we cannot 
do it all that way, which means that a balanced plan needs 
about two-thirds efficiency and about one-third additional 
production, and that is what the President's plan proposes to 
address, and we will. In the last decade--basically the 1990s--
domestic production increased one quadrillionth in terms of 
supply. If we stayed on that pace, then the remaining gap 
between what demand will be and what we believe current supply 
level to be is only going to be partially offset, a very small 
part, requiring us then to put even greater demand on imports.
    We are going to do our best to exceed the two-thirds gain 
in efficiency, and I think we can as a country because I think 
there is a lot greater national interest in this now than there 
has been in the past.
    Mr. Callahan. With respect to the gentleman's concern about 
putting people at risk at Yucca Mountain, I imagine you can 
travel down to Atlantic City and get some pretty good odds; 
probably in Atlantic City, a billion to one putting people at 
risk. If you went to Las Vegas, it would probably be ten to 
one.
    Mr. Callahan. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. I will make a request 
to submit some questions for the record.
    Mr. Callahan. All members may submit questions for the 
record.

                SPENT NUCLEAR FUEL AND MIXED OXIDE FUEL

    Mr. Pastor. Thank you.
    I am one of those people becoming more and more persuaded, 
as we demand more energy and we want less reliance on fossil 
fuels, that we have to look at different alternatives. I know 
that this administration wants to look at nuclear energy as one 
of the possibilities, but what do we do with the spent fuel?
    I see in your testimony, at least on Page 6, you are now 
beginning to dispose of weapons-grade plutonium by 
incorporating it into a MOX fuel program. Now do you think that 
will end up into commercially recycling spent fuel so we can 
recycle at the same time, and whatever becomes less radioactive 
can be stored safely?
    Secretary Abraham. Here is the history of that, as I 
understand it, and Congress has played a role in requiring our 
Department to dispose of weapons-grade plutonium.
    The history, and it goes back to Representative Edwards' 
questions about our nonproliferation program, the history is 
that in the previous Administration an agreement was reached to 
basically, on each side--on the Russian side and on the 
American side--to dispose of 34 metric tons of weapons-grade 
plutonium.
    The decision on the Russian side is to essentially convert 
all of that to a MOX fuel which can be then used in a safe 
fashion in nuclear reactors. The decision on our side, at least 
the initial decision, and one of the issues that was reviewed 
very ardently during our national security review of 
nonproliferation was to dispose of about 25 metric tons of U.S. 
weapons-grade plutonium through the same kind of conversion 
process to MOX fuel and that the remaining nine metric tons 
would be immobilized.
    The results of our review were that the enormous cost of 
the immobilization just did not seem to be warranted, given 
that a slight design modification in the MOX facility that we 
contemplate building in South Carolina could allow us to 
basically convert all but two of the metric tons into MOX fuel. 
So that is the plan. It would be then used in reactors 
primarily in South Carolina, actually, as a fuel for those 
reactors.
    Mr. Pastor. Right now in Arizona we have our spent fuel 
under water in pools, and obviously we would like to make most 
of that spent fuel reusable, and that that becomes unusable to 
be stored safely somewhere. Is this going to translate into a 
possible program development that would allow us to recycle 
commercial----
    Secretary Abraham. No, and we are not moving that direction 
in terms of processing spent fuel. Obviously, our decision, 
with respect to Yucca Mountain, is to fulfill the commitment 
the Federal Government has made to the companies who run the 
nuclear reactors, and more importantly to their ratepayers who 
have been paying us to dispose of this for them by building the 
Yucca Mountain repository and storing the waste 1,000 feet 
underground there, which we will do.
    At some point, I am sure there will be additional hearings 
and discussions on it, but I can only tell you that this is 
already a commitment that has failed to be met because we were 
supposed to begin accepting that waste from your facilities, 
and others, in 1998, and even the most optimistic sort of 
effort here to get the process moving forward is still going to 
take us several more years.
    But that is the principal means of disposition. The 
processing or the transmutation alternatives that occasionally 
are discussed are extraordinarily costly. Our Department 
estimated in 1998 in a study that about $280 billion to develop 
the kinds of nuclear reactors that would engage in that 
process, and you still would have a byproduct that had to be, 
at some point, stored.
    Our view is that the current situation is unacceptable. We 
have 130 sites around the country in 39 States some form of 
nuclear waste that, in many cases, is in either open or 
temporary storage and that, for those communities, which 
include most of the populace cities of America, that is not an 
acceptable long-term approach.

                              SOLAR ENERGY

    Mr. Pastor. As you indicated to us, there will be a greater 
demand for energy, and it seems that this administration still 
is relying a lot on fossil fuels and meeting those needs.
    Last year, this committee increased the request for the 
development of solar, and I see in your request it is less than 
what the committee gave you last year. The investments that we 
made in concentrating solar power and other technology that 
uses solar energy, you are going to limit those, and you are 
going to concentrate on the thin-film photovoltaic technology, 
which I do not know whether that is a good move or not, but I 
am asking you what is your basis for it and also for the zero-
energy buildings.
    Secretary Abraham. Well, let me just say, first, to put it 
in perspective, the enacted level for the Fiscal Year 2002 
budget for solar research was $89 million, roughly, and what we 
are proposing is $88 million, so it is essentially the same.
    Mr. Pastor. I think that this committee appropriated $95 
million last year.
    Secretary Abraham. The final enacted, I believe is $89 
million. But it is roughly a parallel number.
    Mr. Pastor. Okay. I will not quibble about that. That is 
not the reason I am asking the question.
    Secretary Abraham. The question is what is the decision, 
what is the policy.
    Mr. Pastor. Right, why the policy.
    Secretary Abraham. And let me tell you what we did, just in 
this case to reiterate. One of the first taskings that both the 
national energy plan directed to my Department and that I 
directed to the Assistant Secretary's as they became confirmed, 
was to do top-to-bottom reviews of the programs in their area, 
particularly the R&D programs, to try to analyze which were 
working, which were not, which needed modification.
    Separately, on our renewable energy and energy efficiencies 
programs, there have been some outside analyses. I think the 
National Academy of Sciences may have been one of the entities 
that did its own investigation, and it was based on that 
analysis that the decision to shift in the direction you just 
outlined was made. I would be glad to provide the completed 
analysis to you so that you can see the basis.
    [The analysis follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              SOLAR ENERGY

    Secretary Abraham. The bottom line was let us spend the 
money on research that seems to have a more likely application.
    One of the concerns I have had with the areas that have 
been well researched--solar, wind, geothermal--is that we have 
spent $8 billion or so dollars on those research programs. A 
lot of the research was mature. The problem was figuring out 
which of these had the greatest possible application potential 
now, and we sort of thought this was a better direction.
    Mr. Pastor. Mr. Chairman, just let me follow up with that.
    I was told by one of your labs that the solar tower 
technology has been advanced to the point where it was ready to 
go out and to become produced and used in the private sector. 
And if that is the case, I was wondering why you were limiting 
that and going on to another technology that may not be as far 
advanced.
    Secretary Abraham. Well, for that reason. If technology and 
research has reached the point where something is capable of 
going into the market, then engaging in additional spending and 
research on it, to us, was not the best use of the money. We 
thought it made more sense. We want to do is to be engaging in 
the research on the newly emerging opportunities when we finish 
the work on something that is already ready for market.
    Mr. Pastor. Maybe what I need from you is the information 
in more detail to say how much money is going to the solar 
tower, and how much money is going to concentrated dish, so 
that I have a better feeling, rather than just the broad 
statement that I read.
    Secretary Abraham. Let me just make one last point.
    Mr. Pastor. Sure.
    Secretary Abraham. One of the things that I think we need 
to also be addressing is the issue of what are the barriers. I 
mean, we all know that some of the renewables, solar being an 
example, can be very cost prohibitive. Our energy plan 
recommends tax incentives to encourage more use, but we also 
need to address some of the other issues like the question of 
net metering is one that we are putting greater interest and 
focus on, trying to create a situation where if somebody in 
your State or other States decides to go to a solar roof or 
whatever, there are times in the day when they are actually 
generating surplus energy, but if you do not have a net 
metering opportunity, where you can actually be a seller into 
the grid instead of only a buyer, then you do not gain much 
benefit for it, and we like to promote that as well.
    Mr. Callahan. Mr. Latham is next, but I wonder if he would 
consider yielding 1 minute of his time to Mr. Rogers, who has 
an 11:45 meeting with Secretary Powell.
    Mr. Latham. It would be my honor.
    Mr. Callahan. I thought it would be. [Laughter.]

                     DEPLETED URANIUM HEXAFLUORIDE

    Mr. Rogers. I thank the gentleman for yielding, and I will 
be brief. Mr. Secretary, this would call for I think some brief 
answers.
    Let me ask you about DOE's plans to build two plants, one 
in Paducah, Kentucky; one in Portsmouth, Ohio, to stabilize the 
roughly 7900 tons of depleted uranium hexafluoride at these 
locations. Where do you stand now?
    Secretary Abraham. Here is our strategy at this point. We 
had moved down the road in terms of an initial submission or 
bid submission, as you well know, to follow on the proposal to 
have two, as they are called, DUF6 facilities built. We have 
concluded, though, as part of our national security analysis of 
these issues, that there is, in our judgment, a very compelling 
national security interest also in maintaining a domestic 
uranium enrichment capability that is a competitive capability.
    We are, therefore, interested in looking at a separate set 
of issues, but which I think have a lot of common components to 
them, and that separate set of issues is what we can do to move 
forward to ensure that in addition to cleaning up the uranium 
byproducts that have existed because of the gaseous diffusion 
facilities in Paducah and the Portsmouth facility in Ohio, that 
we can also try to generate, ideally, at one or the other of 
those locations, a new technology enrichment capability.
    And so as we are working towards accomplishing that, we 
have thought about, as an alternative, the idea that the 
developing of one larger DUF6 facility in one location and an 
enrichment capability in the other, and we are trying to 
explore that before we head down a road that would build more 
of the clean-up capability than we feel may be needed and 
either preclude or inhibit our ability to have a new enrichment 
facility. Our hope would be to ultimately have, in each of 
those communities that have played such a positive role in the 
development of our uranium enrichment capability, to have a 
major facility, and so we are exploring that at this point.
    Mr. Rogers. But you would still have to ship a lot of 
tonnage between the two, would you not, if you have----
    Secretary Abraham. If there was only one, yes, there would 
have to be.
    Mr. Rogers. And is that a big cost and a big danger?
    Secretary Abraham. We do not think it is prohibitive in any 
case. We really had I think, as a Department, an 
extraordinarily successful track record in terms of 
transportation.
    Mr. Rogers. So, when do you expect to decide?
    Secretary Abraham. I cannot give you a specific date, 
Congressman, much as I would like to, but we are moving very 
quickly toward a decision on that and hope to make an 
announcement very soon.
    Mr. Rogers. Very soon?
    Secretary Abraham. Very soon.
    Mr. Rogers. Springtime? [Laughter.]
    Secretary Abraham. Maybe sooner.
    Mr. Callahan. Sooner than spring. Well, that would make a 
nice song, ``Sooner than springtime.'' [Laughter.]
    Secretary Abraham. So we will keep you very closely 
informed. I assure you that we understand and appreciate the 
concern.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you, Mr. 
Latham.
    Mr. Callahan. Mr. Latham.

                   BIOMASS, BIOPRODUCTS, AND ETHANOL

    Mr. Latham. Thank you, Mr. Chairman. I would like you to 
sing some more, if you would, please. That is very nice.
    Welcome, Mr. Secretary. I appreciate the chance to ask you 
a few things and visit with you. I guess, first of all, the 
idea of finally having an energy policy is so important, and I 
am just very excited about the possibilities, what it can mean 
for our part of the country as far as converting the energy 
that we put into corn, and soybeans, and biomass, those type of 
things and making those products viable.
    I know you are aware of the outstanding Energy Department 
facility in Ames, Iowa, the Ames Lab. And last year I was able 
to secure some funding for the Bio Renewable Resource 
Consortium and to work with USDA, as far as research to find 
new uses for agricultural products tied to the concerns we have 
for energy, and I would, I guess, first of all, invite you to 
come out and visit the facility--we would love to have you out 
there--and also to ask you what you see as the potential for 
that type of consortium and the benefits that you think we can 
see from that.
    Secretary Abraham. Well, I think it is a very positive area 
for our research investment. I know that we are providing an 
increase of $14 million in this budget submission to our 
renewable energy technology program of which I think somewhere 
in the vicinity of $7 million is an increase for ethanol 
extraction from corn waste. It is part of the sort of broad 
commitment which is reflected in this budget; as I said 
earlier, the largest submission in history, at least in 20 
years, for the renewable and the efficiency programs.
    So we are very supportive, and I appreciate the invitation, 
and I would like to visit.
    Mr. Latham. That would be tremendous. They would love to 
have you at that facility.
    There has been a kind of a meeting of minds between 
agricultural leaders, supporters of ethanol, and the oil 
industry about a renewal fuel standard by the year 2012 a usage 
of about 5 billion gallons. I do not know whether you have 
established a position, a Departmental position on that type of 
an agreement, but if you had any comments on----
    Secretary Abraham. I do not know that we have had an 
official policy. I am not immediately familiar, but I will be 
happy to submit that for the record.
    [The information follows:]

                        Renewable Fuel Standards

    The Administration supports the expanded use of cost-
effective renewable fuels, including ethanol and other biomass, 
which would promote energy security, farm economy, and clean 
air. The Administration would welcome a proposal to expand the 
use of renewable fuels in ways that are cost-effective and 
environmentally beneficial.
    It is important to emphasize that the use of renewable 
fuels is only one part of a national energy policy. As stated 
in the May 2001 National Energy Policy, a national energy 
policy must be balanced, including energy efficiency, energy 
conservation and energy production. President Bush has called 
upon Congress to enact comprehensive and balanced energy 
legislation that will protect our national security, our energy 
security, and our environment. A renewable fuel standard is one 
part of such an approach.

                  WIND ENERGY AND ELECTRICITY STORAGE

    Mr. Latham. It basically, just recently, as far as this 
proposal coming out with an agreement between the entities 
involved and obviously it would be very, very important to us.
    Another major energy source in our part of the country is 
wind energy, and I see that you have got increases, as far as 
support for that in the budget and focus on, what, I think on 
less windy areas. One thing we do have is a nice steady breeze 
usually in Iowa, and it is a great thing. Our farmers 
absolutely love it. I mean, it is a source of income in 
difficult times that they appreciate very much.
    Having said that, there is always concern about, you know, 
when our hottest days of the year, the wind does not blow, and 
we need to have that capacity also. So if you could comment on 
wind energy in general, and research into storage which maybe 
would mitigate some problems.
    Secretary Abraham. First of all, as you note, the wind 
energy research component we proposed to increase by about $5 
million with the focus on less windy or moderate to lower level 
wind velocity, trying to figure out how to provide sufficient 
generation from that. My staff has proposed heavy wind right on 
my desk. I seem to generate a fair amount of wind every day. 
[Laughter.]
    I was recently talking with some of our economists, and if 
we ever could get to the point where we could effectively store 
electricity, it would dramatically alter the whole energy mix, 
and so I am not sure what the exact number on this budget is 
for storage programs, but those in our superconductivity 
programs are priorities in terms of the efficient transmission 
of and maintenance of energy.
    One of the things we are particularly excited about is some 
of the--I do not want to change the subject--but some of the 
gains in our superconductivity program, where we can send more 
and more transmission of electricity over lines with less lost 
along the way. The storage challenge is a major one, and I 
would be happy to get back to you with a specific number on 
that budget item.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                LIQUID WASTE AT THE SAVANNAH RIVER SITE

    Mr. Latham. Very good.
    Thank you, Mr. Chairman, and thank you, Mr. Secretary.
    Mr. Callahan. Jim.

                     ENVIRONMENTAL CLEANUP PROGRAM

    Mr. Clyburn. Thank you, Mr. Chairman.
    Let me, first of all, thank the Secretary for the 
tremendous amount of cooperation we have had with his office 
since last year and thank you so much for that.
    There are two issues that concern us in South Carolina. 
South Carolina, being such a small State, and of course the 
Savannah River site is not in my district, but for stuff to get 
there, it comes through my district, and we are quite concerned 
about it.
    We have two issues. The first one, of course, has to do 
with the 30 million gallons of liquid waste that we have been--
I think you and the governor are having some rounds on that--
getting rid of that. The problem we have is that this stuff is 
testing the capability of those corroded tanks. We know the 
corrosion is there. We know that it is beginning to cause a lot 
of unease with people in and around that. Where are we with 
that?
    Secretary Abraham. Well, my understanding is that some of 
the actions which have already been taken on this include 
moving material from the older design tanks to more modern 
ones, higher integrity tanks, to developing a more thorough 
program for the monitoring of the tanks in the surrounding 
areas. We put a management plan I think in place, as I 
understand it, to ensure that there is sufficient space in 
these existing tanks to be able to conduct that transition, 
also to try to accelerate the material, the so-called 
stabilization effort, and tank closures at the site. These are 
some of the actions which we have taken.
    I mentioned earlier, and I do not want to go back over all 
of it again, but I think the most important track is the notion 
of trying to work with each of our sites to address their 
problems more expeditiously. And so certainly in our 
discussions with Savannah River, this would be the kind of 
project because it does have such a risk component to it that 
would be one we would like to see addressed more quickly. 
Obviously, it goes back to the earlier discussion about both 
the short-term funding increases and the recognition that 
hopefully at some point it is done, and we have accomplished 
that.

                          MIXED OXIDE PROGRAM

    Mr. Clyburn. Let me, if I may, ask you about the MOX 
program. I understand that over, I think, according to your 
testimony, a 20-year period we are talking about a $3.8-billion 
program. It is my understanding that about a quarter of that is 
to be on design plans, and of course the question is whether or 
not it is any better than 50-50 of the thing ever being built. 
And if we are going to commit here to $900 million to a design 
program, and the thing may not ever be built, I am really 
concerned about that kind of expenditure when so many other 
things are going lacking. We put all of that into the design, 
and then we find out we will not build it, and all of that will 
be taken away from some more domestic things that we ought to 
be doing.
    Secretary Abraham. There are two facilities really that we 
are dealing with here. One is the MOX production facility, the 
other is a so-called plutonium pit disassembly facility because 
some of the plutonium will come in the form of the pits, as I 
commented on earlier, after extensive analysis of these 
nonproliferation programs, this Administration, from the White 
House all the way through all of the departments and agencies, 
is fully committed to carrying out our responsibilities to 
dispose of 34 metric tons of weapons-grade plutonium. The only 
way that we can fulfill that commitment is through the work 
that we envision doing at Savannah River.
    I really do not believe, that there is an issue of whether 
or not we can design a facility that will work. There are 
enormous costs involved in these two facilities, but we are 
confident that the development of these can happen, partly 
because MOX production does exist elsewhere in the world. It is 
not a brand new undertaking. In France they have MOX 
facilities. So it is not a case of trying to invent a new 
process. So we are very committed.
    I think one of the issues that the governor and others in 
the delegation have raised with me from the very outset, as we 
did put a pause on this program last year during the review 
process, was a desire to not only demonstrate our commitment 
with money in this budget, which we have, but also to convey 
from the White House, from OMB a commitment to the sufficient 
levels because they ramp-up very quickly. To put it in 
perspective, we are talking about ramping up to a half-billion 
dollars a year very quickly in terms of the investment in this, 
and we are prepared to make those commitments to do it.
    Mr. Clyburn. I understand that this has taken place. In 
fact, I have visited those facilities in Europe, but the 
question is whether or not what we are going to do will depend 
upon what the Russians do or are we going forward?
    Secretary Abraham. No.
    Mr. Clyburn. It is not?
    Secretary Abraham. No. We are actually working with the 
Russians. I mean, one of the challenges, as everybody knows 
under this program, is whether or not and how we would finance 
the Russian component of this. We have been looking for various 
ways. We are providing part of that support in this budget. We 
have also previously secured some commitments from other 
members of the G-8, G-7, in this case, to support it, and I 
think the Russians are totally supportive of having this 
happen.
    But we believe that our commitment to move forward has to 
go forward, and it should not be further paused pending the 
financing of the Russian program. It may end up that the 
percentage of financing which we provide to that program is 
substantial. We are hopeful that there might be other ways to 
encourage Russia in another participation.
    Mr. Clyburn. Thank you.
    I understand our time constraints, Mr. Chairman, and I may 
wish to submit some questions later.
    Mr. Callahan. Thank you.
    Mrs. Emerson.

               RADIOACTIVE MATERIAL TRANSPORTATION SAFETY

    Mrs. Emerson. Thanks, Mr. Chairman. I have some questions I 
would like to submit too.
    Mr. Secretary, it is great to have you with us today. 
Thanks for the very good job that you are doing.
    I was going to talk about PMAs, I was going to talk about 
renewables, but then yesterday this came in the mail in my 
office, and I know that it looks interesting, but my colleagues 
also might be very interested in this. This is a polymer, and 
it is probably one of the most exciting things that I have ever 
really come across, particularly because I think it can make a 
huge contribution to the way that we look at the transportation 
and storage of nuclear waste.
    Just to do this quickly because I know we have got a vote 
on, I have in my district a small business called Hanford 
Nuclear Services, which is run by Dr. Soundararajan. Anyway, he 
has developed a polymer that has many applications in the 
nuclear and radioactive waste industry. And without getting 
overly, overly technical, and I actually may have to read from 
notes here, this polymer that he has developed can be combined 
with waste materials, like depleted uranium, to make a 
radiation-shielding product. It is a polymer that is totally 
immune to very high levels of energy, energetic radiation such 
as alpha, beta, gamma, and neutrons. And the tests were done, 
as a matter of fact, Mr. Secretary, at your Pacific Northwest 
National Laboratory and at Argonne National Laboratory. But 
some of the benefits are tremendous because it is radiation-
proof, it is nonbiodegradable, it is nontoxic, noncombustible, 
virtually nonleechable, and it would provide long-term 
stability for the containment of radioactive materials, plus it 
is a low-cost alternative to other existing technologies, such 
as concrete entombment and other vitrification things that you 
all do.
    I realize that sometimes our departments begin contracts 
and projects with companies, and you have made a big 
investment, and therefore want to follow through, but I would 
like to ask you, if you could, in light of all of the 
controversy surrounding Yucca and the fact that in Missouri we 
are very nervous about transporting nuclear waste through the 
State, we could probably save, I think Dr. S. has estimated, 
about $202 million a year over many, many, many years if, in 
fact, this technology was used to store our radioactive waste, 
and perhaps even allow it to be stored on-site, as opposed to 
being transported anyway.
    And so I would very much like you all in the DOE, at the 
upper levels, to really take a look at this polymer and look at 
the implications because I think that he might have come upon a 
solution that would make all of us very happy and certainly 
feel a lot safer.
    Secretary Abraham. Well, I would be glad to follow up. Let 
me just state, on transportation, just for the record, the 
Department has transported various forms of nuclear material 
and nuclear waste for 30 years, extensive amounts, as have 
Europeans even greater amounts, without ever having one 
instance where a harmful leakage occurred. So we are very 
strongly convinced that transportation is not a threat, and I 
do not want to leave any kind of possible impression, whether 
it related to Yucca Mountain or anything else, that the 
citizens of your district or State or anybody else are at risk 
when we do these movements, but otherwise I would be glad to 
follow up.
    Mrs. Emerson. Well, I appreciate that. Let me also mention 
that I know that the DOE says that the storage facilities that 
they use now would probably be good for 100 years, and that 
this has been tested, and I think that the science behind it 
would say that it would certainly be safe for, minimally, 200 
years. So there is a cost savings involved, and I have got a 
packet of information here, if I might give it to you or your 
staff so that you can take it back and check it out.
    Thank you.
    Secretary Abraham. Thank you.
    Mrs. Emerson. Thanks, Mr. Chairman.
    Secretary Abraham. It occurred to me, when we made the 
announcement of a $430 million agreement with Hanford today, 
that Dr. S. may be thinking you are pretty effective. 
[Laughter.]
    Mrs. Emerson. Yes, perhaps so. But anyway, it would be good 
if you all would look at this because I am very excited about 
it.
    Thank you.

                                  VOTE

    Mr. Callahan. Mr. Secretary, we have a serious problem on 
the House floor with regard to whether or not we are going to 
adopt the previous question. [Laughter.]
    So we are going to have to----
    Secretary Abraham. Right.
    Mr. Callahan. And then in addition to that, I imagine, 
immediately after, I know there are two votes, and we will have 
to vote on the rule. I do not know what your schedule is for 
the day, and I know that members have other questions to submit 
to you.
    Secretary Abraham. Right.
    Mr. Callahan. So, with your indulgence, we will just have 
to go over there and take these two votes and come right back.
    Secretary Abraham. Mr. Chairman, I am happy to wait. As 
members come back, we can start at your convenience.
    Mr. Callahan. When they get into that energy, wind energy, 
windmill thing, too, they could put a couple of those on the 
House floor. [Laughter.]
    Thank you.
    [Recess.]
    Mr. Wamp [presiding]. At the risk of being set back 3 years 
in seniority, I am going to call this meeting back to order, 
but I know how dangerous it is these days to call a meeting of 
the Energy and Water Subcommittee back to order. [Laughter.]
    Mr. Visclosky, why do you not begin with your questions so 
that you are actually talking when the chairman comes back in.
    Mr. Visclosky. Thank you, Mr. Chairman. [Laughter.]

                        REACTOR SAFETY IN RUSSIA

    Mr. Visclosky. Mr. Secretary, in the interest of time, and 
I too have a number of questions to submit for the record, I am 
not going to ask, at this moment, questions on the 
administration's plan on underground nuclear testing, but that 
is not out of lack of interest or concern about the issues. I 
would just raise that we will have a series of questions for 
the record.
    On the issue of proliferation again, my sense is the budget 
deemphasizes, to a degree, the issue of reactor safety in 
Russia, and if you could comment, for a minute or two, as far 
as what you see ahead the next year with the budget proposal 
because that has been a continuing concern of mine.
    Secretary Abraham. I think the intent of our Department was 
to finish the work on some of the more serious or biggest 
challenges with some of the older model reactors and then 
toshift to the International Atomic Energy Agency (IAEA) oversight with 
respect to most of that responsibility. Now that does not mean a 
disinterest on our part, it is just really a focusing of some of our, 
we think that that would be an effective way and adequate way of 
dealing with those reactors that we are not already engaged in working 
with.
    And then separately, as I think you know, we are in the 
process of accepting from the Department of Defense 
responsibility for the transition from the plutonium reactors 
to alternative energy generation for the three reactors that 
still employ, that are plutonium generation reactors. So that 
is the basic rationale to complete the work we have already 
engaged in on the ones which we think are older and create a 
more serious risk and turn to the IAEA for further oversight or 
for principal oversight on the rest and then to put more 
emphasis on the conversion from the plutonium reactors to the 
alternative fossil fuel generation.

              LABORATORY-DIRECTED RESEARCH AND DEVELOPMENT

    Mr. Visclosky. Mr. Secretary, I would like to turn now to a 
laboratory-directed R&D. I have, for years, had some very 
serious concerns about the issue and appreciate the arguments 
that are put forth that but for some of this lab-directed 
research, we might not be able to continue to attract the best 
and brightest as some of our national labs. As far as that 
argument goes, that is fine, but one of the concerns I have is 
how monies are being moved where we, ourselves, on this 
Subcommittee have an inability to move these monies between a 
Defense and non-Defense function. What I refer to is when we go 
to conference with the Senate, Senate rules have a firewall 
between Defense and non-Defense spending. We cannot, in that 
situation, necessarily, always make what we think might be the 
best decisions between civilian and Defense spending, the Army 
Corps of Engineers and some other type of Defense function.
    Yet the Department of Energy, the Defense laboratory 
contractors received about $210 million in fiscal year 2001 for 
lab-directed research. Of that $210 million, only 75 percent, 
$157 million, were from Defense funds; i.e., the other 25 
percent came from civilian funds. When we get to conference, we 
cannot move monies back and forth between those functions, but 
the laboratories can, and I must tell you I am very upset by 
that and do not understand the rationale that people who are 
not elected to anything can make that type of determination, 
when we are restricted when we go to the conference.
    Secretary Abraham. I am not sure how to respond because, 
having been in the Senate, I perhaps could make the case for 
the firewalls they have put in.
    Mr. Visclosky. I am not arguing the firewalls. In other 
forum I might want to. I am not arguing the firewalls. I am 
saying, when we go to conference, we are restricted because of 
those firewalls, and it was a subject of conversation when Mr. 
Callahan and I met with the OMB Director, as far as our 
negotiations with the Senate. That is our problem.
    But my point is we are all elected officials. We, the way 
the rules and the law are set up today, cannot move that money 
back and forth in the Congress of the United States. The 
laboratories can, and there is something fundamentally wrong 
with that from my perspective, that you have $210 million at a 
Defense lab, 25 percent of it is coming from the civilian side. 
We cannot do that, but the laboratories can.
    Secretary Abraham. Again, I am not sure what the comment 
would be because, again, the Senate has always placed, you 
know, a prime emphasis on the firewalls, and yet I have not 
received from anybody in the Senate any concern about this 
movement.
    Mr. Visclosky. I am not asking for any further comment.
    Secretary Abraham. I understand your concern.
    Mr. Visclosky. My point is about the labs having discretion 
that members of Congress and members of the United States 
Senate do not have, making these decisions, and from my 
perspective, unfortunately, the inability of the Secretary's 
office to keep them in line, and I do not say that to be 
critical of you or your office. This has been a perpetual 
problem.

              LABORATORY-DIRECTED RESEARCH AND DEVELOPMENT

    Secretary Abraham. Well, just to comment a little bit more. 
I know it has been a concern of yours, and I think it has been 
a concern of the Chairman's as well. We have attempted, in this 
first year, to try to do a couple of things to address this 
issue and, more broadly, issue definition in the Department. I 
alluded to this earlier.
    One of the problems I deciphered, as I began my job and 
traveled around the complex, was that a lot of people really 
acted a little bit uncomfortable about the idea of a defining 
mission for the Department of Energy. And I am not surprised, 
in a sense, because during the 1990s, as the Cold War ended and 
some of the kinds of programs that particularly had gone on in 
the labs were curtailed in various ways, that there would be a 
certain lack of clarity.
    But I made it clear in October in a mission statement that 
I made to all of our program directors and leadership in a 
meeting here in Washington, and I have subsequently reiterated 
across the complexes, is that I still personally view, and I 
think that the definition of the mission has to begin with 
national security because almost everything we do in this 
Department links up.
    Mr. Visclosky. Right.
    Secretary Abraham. Our energy programs are designed to 
provide energy security, which is a critical cornerstone of 
national security. The NNSA programs are directly related to 
it, and the work in science, at least to a large extent, has a 
connection to the basic science research which plays a pretty 
integral role ultimately in that.
    What we have said on this lab-directed research as a sort 
of follow-on to that is that I want to see two things happen 
with it: One, that the lab-directed research, although there is 
going to still be plenty of latitude for decisions, needs to 
still be connected to that national security mission.
    Number two, we have asked the lab, as they develop these 
projects, and this is since we have been there, to also 
maintain a correlation between the research that they conduct 
not only in the comprehensive mission of the Department, but 
also the mission that the money is derived from, so that you 
have both of those checks on the research projects rather than 
what I know has bothered this Committee, and others in the 
past, research that seems not even the slightest bit connected 
to either the Department that has provided the resources or 
even our own Department, and so we are trying that model.
    I will report to the Committee as it moves forward, and I 
am sure the Committee will closely try to determine whether it 
conforms.
    Mr. Visclosky. Mr. Secretary, I really appreciatehearing 
you say that because that was going to be my next line of questioning, 
about your statements last fall, that the primary focus here has to be 
national defense.
    I voted for the energy bill in the House, and no bill is 
perfect, but I would agree with some of the comments of my 
colleagues earlier, we ought to have an energy policy, and 
hopefully there will be a consensus. I appreciate that that is 
happening under your watch. I also appreciate the fact that 
there will be some direction here, as far as a defense function 
and national security function, because again I am not arguing 
the science, but I would, just to make my point, in the report 
submitted to Congress, as far as the lab-directed research for 
fiscal year 2001, we have studies on the primitive planetary 
systems via the Keck telescope, we had satellite-based 
observation of the tectonics of Southern Tibet, we had 
astronomy, absolute chronometers, and correlated isotopes 
anomaly in meteors, Antarctic circum-polar wave and El Nino 
research taking place. We had a study of the coordination of 
carbon and nitrogen metabolism in plants, and a search for 
tectonic sources of the lunar atmosphere, among many others, 
and I have a whole list of them here.
    I do not see what any one of those, and that was before 
your watch, has to do with national security, and my concern is 
these are ad hoc. These are at the Agency's discretion at these 
laboratories, and I do hope, and I certainly would pledge my 
support to help you get your hands on this, so that if they are 
going to do this research, and it is a Defense lab, it is 
Defense research, and it has something to do with a coordinated 
plan the Secretary's office has, the Secretary's office has, as 
far as what research ought to be done, and to the extent some 
of these studies have vast value to the intellectual well-being 
of mankind, that is terrific, but I would also think that we 
ought to have a plan on an annual basis in the science budget, 
as far as the allocation of these resources to do it.
    So I do wish you well. I think it is going to be a very 
difficult task for you.

              LABORATORY-DIRECTED RESEARCH AND DEVELOPMENT

    Secretary Abraham. Let me say that when you become 
Secretary, you become Secretary for the Department, not just 
the part you want to take credit for, and obviously some of 
those did precede us. We have tried by bringing a new mission 
into place, to give a broader kind of context to what people 
should be doing, and we put the two safeguards, as I would 
describe them, in place. We do not want to stifle creativity, 
and we do know that this has some role to play in recruitment 
and retention. Although I have to say, which I am sure is 
obvious with the recent events, the threats to American 
security that 9/11 and the period since have posed, I think 
perhaps have reinvigorated some of the laboratory community and 
the science community on the fact that, and hopefully those of 
us in the political community, that this work is important and 
that there really is a clear need for this national security 
research work to be done. So I think that will help as well.
    I can tell you that I am sure in the first go-around still 
we will find projects either because they just sound odd or, in 
fact, are disconnected, but I am going to try to force folks to 
bring their projects under the two umbrellas I mentioned, as 
well as to explain why they are. Because, let us be honest, 
some of the titles, just by themselves, seem so esoteric as to 
not have any correlation to anything we are doing, and maybe 
that sometimes is not the case. I know that sometimes when I 
have asked about those things I have discovered that there is a 
linkage, but we need to do a better job working at that.
    Mr. Visclosky. In Indiana, there is $299 million out there. 
I grew up in Gary, Indiana, and that is a lot of money to me. 
And not to have some focus, and not to have a sense of 
direction and some system in place, as opposed to an ad hoc 
disbursal of $299 million is not appropriate, in my book, but I 
appreciate what you are trying to do.
    Secretary Abraham. We are starting down the road I 
mentioned. We will be monitoring it and see where it leads.

                             PIT 9 IN IDAHO

    Mr. Callahan [presiding]. Mr. Secretary, in the Conference 
Report last year, we encouraged you to use the alternative 
dispute resolution to resolve that Pit 9 issue between Lockheed 
and Idaho. I just wonder what have you all done toward trying 
to reach some resolution there.
    Secretary Abraham. Well, there remain a number of Idaho 
matters that are unresolved. That is one of them. We certainly 
have no philosophical objection to alternative dispute 
resolution, as opposed to litigation.
    Mr. Callahan. What are we doing about it, though?
    Secretary Abraham. My understanding is that there is some 
fairly significant jurisdictional questions that our General 
Counsel's Office and other I guess agencies believe are at play 
here which have to be resolved in this litigation.
    Mr. Callahan. What is Justice's position in this?
    Secretary Abraham. Well, let me try to put that together 
for you, if I could, for the record. But, as I say, my 
understanding is that the principal impediment which we have 
had is a question of jurisdiction over the subject matter and 
that may not be something that can be determined by an 
alternative dispute resolution court.
    Mr. Callahan. Who would have jurisdiction?
    Secretary Abraham. Pardon?
    Mr. Callahan. Who would have jurisdiction over it?
    Secretary Abraham. I would have to submit for the record.
    [The information follows:]

               Idaho Pit 9 Alternative Dispute Resolution

    Application of ADR to the current Pit 9 litigation is 
complicated at this time by the fact that the lawsuit brought 
by Lockheed Martin Corporation against the United States in the 
Court of Federal Claims raises a jurisdictional question having 
government-wide implications which is not amenable to 
resolution by mediation or other forms of ADR. The Court of 
Federal Claims agreed with the government's jurisdictional 
argument and dismissed Lockheed's suit, a decision that 
Lockheed is currently appealing to the Court of Appeals for the 
Federal Circuit.
    Pit 9 litigation is also ongoing in Federal District Court 
in Idaho, with Lockheed Martin and the Department's management 
and operating (M&O) contractor as the parties. In that 
litigation, counsel for the M&O contractor recently submitted a 
Litigation Plan to the court which included a proposal for ADR. 
A scheduling conference to decide on a Litigation Plan, 
including the structure and timing of ADR, will be held April 
3.

                     ALTERNATIVE DISPUTE RESOLUTION

    Mr. Callahan. I mean, I thought that is what the ADR was. I 
thought that was, I mean, you have a dispute with a contractor, 
and ADR is there specifically for that. And it would appear to 
me that that would be, you know, that is a logical solution to 
your dilemma of who has jurisdiction.
    Secretary Abraham. Here is my understanding, and I am going 
to read something on it here just to make sure I have got it 
precise, is that ``the lawsuit which was brought against the 
United States by Lockheed in the Court of Federal Claims raises 
a jurisdictional question having Government implications, 
resolving of which is not amenable to resolution by mediation 
or other forms of alternative dispute resolution.''
    The Court of Federal Claims agreed with the Government's 
jurisdictional argument in the case, and therefore dismissed 
Lockheed's suit. That decision is being appealed by Lockheed, 
as to whether or not the Court of Federal Claims actually had 
jurisdiction over the matter. If the conclusion was that 
jurisdiction did not exist for this lawsuit, then we would not 
go forward and try to engage in any kind of dispute resolution 
where there would be an acceptance of liability or anything 
when there was not jurisdiction for the matter to begin with.
    But it is obviously one we would like to resolve. It would 
be hard to estimate whether an ADR approach would, in fact, 
reduce our costs and so on. It is kind of hard to do that at 
this point, but I think the resolution of this appeal has to 
happen first.
    Mr. Callahan. Looking through this briefing book, they have 
got about 46 questions they want me to ask you, and I do not 
want to sit here and listen to you respond. [Laughter.]
    You know, you have learned--your education in the Senate 
has taught you, as it has taught most Cabinet members, that the 
longer you take to answer a question, the less questions you 
have to answer.
    Secretary Abraham. It is only a search for thoroughness.
    Mr. Callahan. I understand that. I understand that. 
[Laughter.]
    So I think I am probably going to just submit the rest of 
mine and ask you to give us some written response to each of 
the questions in a timely fashion, Mr. Secretary.
    But I do not want to deny any of my colleagues any time 
they might want, so, Mr. Wamp.

                 CHALLENGES AT THE DEPARTMENT OF ENERGY

    Mr. Wamp. Thank you, Mr. Chairman. I will boil mine down, 
too, as well, and I appreciate your patience, Mr. Secretary, 
particularly for coming back here twice after votes. I also 
want to compliment you on your first year on the job in this 
position. You have surrounded yourself, in my view, with some 
very talented people--with you today, Secretary Card and Mr. 
Carnes. Of course, General Gordon has got a little more 
autonomy, and we are going to hear from him in detail tomorrow, 
but you make an excellent team. I also want to comment publicly 
on Kyle McSlarrow, your chief of staff, who really does a 
fantastic job of coordinating all of the different priorities, 
and I have served with four Secretaries of Energy. It is not an 
easy job no matter whether the administration is Democratic or 
Republican. It is really one of the toughest Cabinet-level 
positions you can be assigned to, but you have really had a 
good first year and accomplished a lot in a time of crisis, 
also.
    I want to open, too, on this issue of national security, 
not going into the detail that we will get into tomorrow with 
General Gordon about NNSA and its role, and its mission, and 
its funding request, both in the supplemental and in the 2003 
budget, but just in general, if you think about the Atomic 
Energy Commission, then the Department of Energy, and now back 
to the primary mission of national security at the Department 
of Energy, I think it is kind of an historic time to assess 
where we are and where we are going.

                         DOE-NNSA RELATIONSHIP

    How is the DOE-NNSA relationship, from the Secretary's 
standpoint, today functioning, and do you think that the 
country post-September 11th has restored the priority of the 
nuclear weapons stockpile, stewardship and management that DOE 
previously had, but in my view had been almost ignored for some 
time?

                         STOCKPILE STEWARDSHIP

    Secretary Abraham. Well, first of all, let me just echo 
your comments with regard to the leadership of the Department, 
not including me. I think that both General Gordon and Under 
Secretary Card or Deputy Secretary Frank Blake and the 
Assistant Secretaries who are part of this team have done a 
great job, and they have been the reasons we have done so much 
in this year. Similarly, Kyle McSlarrow has done a terrific job 
because he has really performed well beyond the normal chief of 
staff function in terms of both direct hands-on involvement in 
a number of these programs, as well as management.
    With regard to NNSA, I think that General Gordon and I have 
been very successful in trying to address a challenge that 
Congress posed to this Department of trying to function both as 
a department, but also with a semi-autonomous or semi-
independent arm of it. I think that on the issues of policies, 
we have worked very well together, as have our teams, to try to 
make sure that we do speak on these topics with one voice. I 
think that General Gordon is immensely for the job he has and 
is doing a great job of it.
    As far as the future priorities of the stockpile 
stewardship, let me just say this: We encountered, when we got 
there, a very serious set of challenges. We have, and do have, 
in the absence of testing, a terrific responsibility here, 
probably one that, I take no responsibility more seriously than 
the responsibility to certify the safety, and the security, and 
the reliability of the stockpile. We can do that, and we have 
the capability of doing that today. We recognize that we will 
need additional tools to be able to do it in the future.
    We are working to try to make sure those tools both 
function effectively and can be effectively measured to see, as 
the stockpile ages, we can continue, with confidence, to make 
the certification requirements.
    The support we have received from this Committee in this 
budget submission are very important parts of keeping that 
stewardship, that science-based stewardship program on track to 
be able to perform. And yet we acknowledge, obviously, there 
are many more steps along that process, but I think we now are 
addressing the infrastructure challenges that we had, we are 
addressing the stewardship funding challenges, and I am 
optimistic that if we stay on this course, we will be able to 
do those jobs.
    I do not think 9/11 should be a factor in terms of the 
question of the stockpile stewardship support because it seems 
to me, irrespective of those kinds of events, this Nation must 
recognize that, in the absence of testing, thecertification 
process is the only thing that conveys the signal that our deterrent 
capability exists, whether it is today or in the future. So I would 
hope that we would have adequate support for that no matter what.

                DEPARTMENT OF ENERGY NON-DEFENSE MISSION

    Mr. Wamp. Also, just parenthetically, Mr. Edwards' comments 
about nonproliferation are also very well received by me. I 
think the administration pivoted extremely well and adeptly on 
this issue in the last 12 months and has really shown some 
leadership on this issue, and I think Mr. Edwards, Mr. Obey and 
others, and this committee deserve some credit for encouraging 
that. The administration I think now is leading very well on 
this particular issue, and I look forward to a bipartisan 
support base for the nonproliferation activities.

                            SCIENCE RESEARCH

    And then to just go a little further on Mr. Visclosky's 
line of questioning, you talked about 2008 for a goal of being 
able to show some real progress on environmental management, 
based on the $800 million. Just fast forward to 2008, with 
vision of science and research, so that the committee can 
understand the nondefense-related science and research, things 
like the Human Genome Project, for instance, which has so much 
potential and people are so interested in it, but it is not 
directly defense related. You would never see it anywhere under 
an NNSA umbrella, but is an important mission of the Department 
of Energy. Fast forward on where those missions will be in 
2008.
    Secretary Abraham. Well, let me just say, first of all, 
that the work we do in a number of these science areas has 
impact on our national security goal, and even that kind of 
program does in the following sense. I said one of the building 
blocks of national security is energy security. One of the 
challenges we have on energy security is our ongoing access to 
sufficient energy resources to be able to maintain economic 
growth and to be able to fuel our military. The Genome Program 
actually has some application we think to energy resource 
development. So sometimes within a broad program, there will be 
components that have very clear application.
    Fast forwarding, here is where we are on the science. We 
just yesterday or the day before, I guess, were able to secure 
confirmation of the new head of our science program, Dr. 
Orbach, from the University of California, Riverside, 
presidency. He has not actually been sworn in, but he literally 
has just been confirmed.
    It is my intention now, with him in charge of that program, 
to try to apply the same kind of very rigorous analysis to the 
science program that we have done already in some of the other 
areas, the energy efficiency renewable energy area, the 
environmental management programs and so on.
    So this budget is a reflection, I would call it a 
transitional document in the sense that it reflects 
continuation of major programs from the Spallation Neutron 
Source program to the support for the basic physics programs 
across the board and so on. But one of the things I think we 
really do have to now do is take that kind of look at the 
science programs.
    One of the things I was engaged in, in the Senate, and a 
lot of you did, too, was a substantial increase in the NIH 
programs. We did not do the same in these, and I think I am not 
proposing that should be the end product. I think we need to 
make an analysis of what we want our DOE science programs to 
achieve and do that fairly quickly so that in the future we can 
answer that question better.
    Mr. Wamp. You are a very quick study. It is really amazing 
that you have become this proficient in a year on all of these 
different issues, and I really mean that. I am not easily 
impressed, but you have done an excellent job.
    Thank you, Mr. Chairman.
    Secretary Abraham. Thank you.
    Mr. Callahan. Thank you.
    Mr. Edwards.

               CHEMICAL AND BIOLOGICAL DETECTION RESEARCH

    Mr. Edwards. Thank you, Mr. Chairman, and I will submit 
most of my questions in writing. If I could just ask two here.
    One, Mr. Secretary, those who follow your agency are aware 
of your role in terms of nuclear nonproliferation efforts. 
Probably not as many are aware of what you do in the area of 
chemical and biological detection research. Could you tell me 
what you see the Department of Energy's responsibility is in 
the area of chemical and biological weapons.
    Secretary Abraham. Well, you know one of the things the 
labs have been contributing to the post-9/11 period has been 
detection equipment, which we had developed in the labs. We 
asked the labs, in the very initial period after 9/11, to 
provide us with, I do not know how to describe it even, maybe 
not so much a wish list, as a possibilities list of the kinds 
of additional research programs. What we asked them to do is 
this: We said, you know, maybe in the past some of these ideas 
came up, and somebody said, well, you know, that is a great 
idea, but we will never have to deal with that.
    General Gordon and I asked them to put their imaginations 
to work in terms of the kinds of things, and we are in the 
process of evaluating some suggestions along those lines. We 
had Tom Ridge over to the Agency for a little exhibition of 
some of these remarkable detection products, not just in the 
Defense labs. Pacific Northwest National Lab has done terrific 
work on this as well, where we literally can focus a beam on a 
canister and ascertain from that what the composition of its 
content is.
    We have machines that are capable of robotics that can move 
into areas where we do not know what dangers might, for a human 
at least, exist or go into sites where it would be unsafe to 
even try to tread. You have probably seen some of these, I 
suspect. Those are some of the kinds of programs that we 
already had and which we are now trying to evaluate further 
development of.
    Mr. Edwards. Do I understand that there were products 
deployed that you either helped build or provided the basic 
research for that have been used to protect Washington, D.C., 
and the Olympics against possible chemical or biological 
threats?
    Secretary Abraham. Yes. We really have a pretty remarkable 
set of programs and products.
    Mr. Edwards. Do you ask for increased or decreased funding 
in terms of chem-bio research compared to the 2002 
appropriation level?
    Secretary Abraham. I believe that there is about a $230 
million proposal in here, somewhere in that range, for I guess 
we call it proliferation R&D, but a large part of that would be 
devoted to these kinds of programs. I think that constitutes an 
increase from where we have been before.
    Mr. Edwards. Could someone put a sharp pencil to that and 
tell me compared to what was focused on chem-bio last year, in 
2001, how we compare----
    Secretary Abraham. That is the broad proliferation R&D, and 
I will try to give you a subset listing for those.
    [The information follows:]

       Chemical and Biological National Security Program Funding

    Funding for the Chemical and Biological National Security 
Program (CBNP) in the Office of Nonproliferation Research and 
Engineering is used to develop, demonstrate and deliver 
technologies and systems that will lead to major improvements 
in the U.S. capability to prepare for and respond to chemical 
or biological attacks. CBNP funding for FY 2001, FY 2002, and 
the FY 2003 request are as follows:

Office of Nonproliferation Research and Engineering--Chemical and 
Biological Program Funding

                                                            In thousands
FY 2001.......................................................   $39,574
FY 2002.......................................................    85,200
FY 2003.......................................................    69,000

    The increase in FY 2002 is due largely to funding from the 
December 2001 supplemental appropriation, and the decrease in 
the FY 2003 budget request reflects the completion of a 
demonstration project that was supported by a portion of the 
supplemental funds.

                       FUEL CELLS IN AUTOMOBILES

    Mr. Edwards. Okay. A final question. In terms of fuel cells 
in autos, it is my understanding, and I may be wrong, but the 
United States manufacturers are behind the curve compared to 
foreign auto manufacturers when it comes to building hybrid 
fuel cell cars. Is that correct and, if so, is that 
technologically driven or is that more because our 
manufacturers decided there may not be consumer demand for 
those types of products?
    Secretary Abraham. Well, I do not know what the 
manufacturers' private decision-making has been. I think 
markets drive these kinds of products, to some extent, but all 
three of the historically Big Three automakers are in the 
process of bringing hybrids into the markets in the next few 
years.
    I am a little bit perhaps influenced by both being the son 
of an auto worker and coming from Michigan, but it is my view 
that the market tends to drive the demand for these and for the 
research, but that the industry foresees a tremendous increase 
in demand, particularly for applications to light trucks, and 
minivans and things of this sort. So there is a lot of industry 
involvement in research there.
    I think some of the foreign companies, for their own 
market-perhaps-driven reasons have gotten to some of these 
points quicker, but I do not think it is the case of a lack of 
time to catch up.
    Mr. Edwards. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Callahan. Well, Mr. Secretary, we will submit our 
questions to you. Once again, we would ask that you would have 
responses here in a timely fashion. But we appreciate your 
dedication to your new profession, as a member of the 
Administrative Branch of Government. And to echo what 
Congressman Wamp said, you really seem to have grasped the 
issues, but we knew you would be able to do that. But 
nevertheless we want to work with you to make sure you have the 
resources to make certain that you continue this direction of 
professionalism.
    I thank you for your appearance here.
    Secretary Abraham. Mr. Chairman, thank you, and thank you 
to your staff as well.
    Mr. Callahan. Thank you.
    [The subcommittee is adjourned.]
    [The prepared questions and answers for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, March 13, 2002.

  DEPARTMENT OF ENERGY--SCIENCE, NUCLEAR ENERGY, AND RENEWABLE ENERGY

                               WITNESSES

ROBERT G. CARD, UNDER SECRETARY FOR ENERGY, SCIENCE AND ENVIRONMENT
DAVID K. GARMAN, ASSISTANT SECRETARY, ENERGY EFFICIENCY AND RENEWABLE 
    ENERGY
WILLIAM D. MAGWOOD IV, DIRECTOR OF NUCLEAR ENERGY, SCIENCE, AND 
    TECHNOLOGY
DR. JAMES F. DECKER, ACTING DIRECTOR OF SCIENCE
    Mr. Callahan. Good morning to you, Mr. Secretary. Thank 
you, and thanks to Mr. Magwood and Dr. Decker and Mr. Garman, 
for being here today and testifying before our Committee.
    You ably supported the Secretary in his testimony last week 
when he appeared before this Committee, but this is the first 
time that you have been formally asked to testify before us, 
and ironically probably your last to testify before me, unless 
you screw up this year, which, with your background and your 
ability, I doubt seriously that you will.
    But we understand that you are beginning to--that you have 
accomplished great things--in accelerating the clean-up of 
Rocky Flats, and apparently you are starting to make a big 
difference at DOE headquarters. So we look forward to hearing 
your testimony today and to working with you throughout this 
entire appropriations process.
    We will ask you to submit your opening statements for the 
record. All of you, if you have statements, are welcome to give 
them, but all of the statements will be accepted as written. 
And at this time, we will go ahead, Mr. Secretary.
    Mr. Card. I will be giving both written and oral 
statements, but everybody will be ready to respond to 
questions.
    Mr. Chairman, Mr. Visclosky--when he arrives--Members of 
the Subcommittee, as Under Secretary for Energy, Science at the 
Department of Energy, it is a pleasure to appear before you 
today to discuss President Bush's Fiscal Year 2003 budget 
request for energy programs.
    Mr. Chairman, let me begin by expressing my appreciation 
for the hard work of this Subcommittee. Both in my former life 
and now at DOE, I have had the pleasure of working with many 
Members of this Committee on both sides of the aisle.
    In thinking about this Committee's demonstrated leadership 
role, I would first like to focus on performance at DOE. 
Members of this panel have appropriately demanded more from 
DOE; more accountability, more fiscal responsibility, and more 
results.
    You have taken a continuing interest in improving the 
Department's stewardship of the tax dollars with which you 
entrust us, and this Administration is strongly aligned with 
your efforts to upgrade the Department. We look forward to your 
support as we move ahead with these improvement measures.
    Do you want me to continue on?
    Mr. Callahan. Continue on, yes.

                      DEPARTMENT OF ENERGY REFORMS

    Mr. Card. This reform starts with asking our energy 
programs three fundamental questions: First, does the project 
or program fit into our mission and core competency? I will 
speak to that later.
    Second, how would the results be different if we did not 
invest in this program at all? If the answer is, ``not much,'' 
then we should probably be reexamining why the program exists.
    Third, is our spending focused on providing an economically 
sustainable result? If the product of our work is not 
sustainable, we should be questioning that investment.
    Overlaying on and intertwined with this, of course, is the 
President's Management Agenda, to which we are fully committed.
    While this focus on real-world results has had an impact on 
the Department, I would say we are only at the beginning of the 
process. It is probably most dramatically apparent in the 
Fiscal Year 2003 request for the Environmental Management 
Program. I realize EM will be represented here tomorrow, but I 
will mention a few important aspects of it today.

                        ENVIRONMENTAL MANAGEMENT

    Within EM we are asking the government, the affected States 
and the stakeholders to reevaluate the basic strategy of the 
program. Our own evaluations clearly show that on its current 
path, the EM program never ends.
    We need a transition from the endless management of risk to 
the actual elimination of it. We want to accelerate the 
delivery of safety and environmental benefits to our workers 
and host communities.
    Most of the stakeholder attention on the EM top to bottom 
review has been focused on the potential impacts on regulatory 
agreements. While the regulatory framework is important, I want 
to make it clear that site clean up agreements are not, I 
emphasize not, the most important part of this reform. Instead, 
our major challenge is to first change the focus, processes and 
culture within DOE and motivate our contractors to rise to the 
challenge.
    The leadership shown by the Members of this Committee as 
well as others in the Congress have led us to pursue this 
transformation. We want to apply this sort of transformation, 
perhaps not as visibly but no less dramatically, to the rest of 
DOE as well. I will give some examples of where we are headed.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    In renewable energy we are pursuing a change in three 
important areas. First, DOE has a vision for America's 
transportation sector with the FreedomCAR program. This would 
move the focus to an emissions-free platform with a great deal 
more flexibility than envisioned by the Partnership for a New 
Generation of Vehicles.
    Second, we are focusing on power systems, such as lower-
speed wind turbines and photovoltaics, that would be physically 
closer to the load centers they serve.
    Third, we are trying to add value to the biomass programs 
by moving to higher value products from the system.

                             NUCLEAR ENERGY

    In nuclear energy we propose to make our top priority the 
development of a sustainable nuclear power industry. TheNuclear 
Power 2010 initiative pushes for the near-term deployment of modern 
reactor designs. We would also like to continue our pursuit of the 
Generation IV reactor program, resulting in a design that is 
intrinsically terrorist and proliferation resistant.

                                SCIENCE

    In Science we are focused on the obvious imperatives of 
climate change and homeland security. Additionally, we are 
attempting to put more of the emphasis on research such as 
nanotechnology that has cross-cutting applications and 
benefits, and appears to have almost limitless potential in 
every aspect of technology and industry.
    Another research area in biosciences is our work on 
genomes, which is being extended from the mapping of the human 
genome to assistance in such areas as combatting terrorism and 
a search for economical carbon sequestration.
    We are also looking forward to the arrival of Dr. Ray 
Orbach, who was just confirmed by the Senate as the Director of 
the Office of Science. One of his first tasks will be to take a 
fresh look at the office's programs and map a vision for the 
future.

                      DEPARTMENT OF ENERGY MISSION

    Let me conclude with the reference to the Department's 
mission. That mission was clearly laid out by Secretary Abraham 
last October and emphasized here last week. The Department of 
Energy is about national security, and the NNSA program's 
alignment with this mission is fairly obvious, maintaining and 
enhancing our nuclear stockpile, working on nonproliferation 
activities.
    The civilian side of DOE is also aligned with the mission 
as well. As we saw a year ago, energy security is fundamental 
to our national security. We applaud the House for passing an 
energy bill last year. Ensuring our energy security is the 
primary goal of DOE's civilian programs.
    In addition to supporting defense and energy needs, DOE's 
science program contributes to national security by helping the 
Nation maintain its technical leadership through science's 
groundbreaking work and basic research. Many of the 
developments currently vital to maintaining the Nation's global 
preeminence, including our current war on terrorism, can be 
traced to this research.
    Finally, our environmental programs, ranging from 
management of the waste to site remediation to minimizing 
emissions from transportation and power generation, provide a 
key umbrella enabler for all of the other programs. An example 
of a key enabler is Yucca Mountain, which you will also discuss 
tomorrow. This is a decision that has major consequences for 
our national security, energy security, and environmental 
remediation.
    In summary, we are improving DOE's operations and 
effectiveness and ensuring that we are focused on our vital 
role in protecting and enhancing our national security.
    I am pleased to have the leaders directly accountable for 
the offices that are the subject of this hearing with me today. 
David Garman, the Assistant Secretary for Energy Efficiency and 
Renewable Energy; Bill Magwood, the Director of the Office of 
Nuclear Energy, Science and Technology; and Dr. Jim Decker, the 
Acting Director of the Office of Science. I am sure, as with 
me, he eagerly awaits the swearing in of Dr. Orbach.
    This concludes my oral statement, and we are all prepared 
to answer questions for you.
    Mr. Callahan. Thank you, Mr. Secretary.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Callahan. Mr. Visclosky, do you have an opening 
statement?
    Mr. Visclosky. I do not.
    Mr. Callahan. Any other Members want to make an opening 
statement?

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Mr. Secretary, when Secretary Abraham was here last week, 
and you and I have also talked about the $800 million incentive 
program to accelerate the cleanup of some of the sites, he 
implied that, Secretary Abraham did, that he needed $800 
million to do this, but he will also probably have to make a 
commitment for additional moneys if he implements the program.
    Can you tell us approximately how much additional funding 
will be required in 2004 and beyond for the accelerated cleanup 
program as the Secretary envisions?
    Mr. Card. Sure. First let me tell you how we would get 
there. How we got to the $800 million plus whatever we would 
need in Fiscal Year 2003, if every site opted into the program, 
is we actually did a bottoms-up estimate throughout 2008 of 
what each site would need, so that by 2008, the program might 
be down under $5 billion at that point in time. So when we did 
that estimate, and what we discussed with OMB, but there is no 
official approval of this yet, is we would need another few 
hundred million dollars in 2004 and 2005 and then ramp down 
from there.
    But how that will be developed is we come to the agreements 
with each site, we will develop a funding plan for the site 
that stretches through 2008, Fiscal Year 2008. It will be from 
that funding plan that we will derive the overall funding needs 
for the program.
    Mr. Callahan. So do you anticipate you would need any more 
in 2003 than the $800 million?
    Mr. Card. If each community or site opts into the program, 
we would need more in Fiscal Year 2003 than the $800 million.
    Mr. Callahan. Where would you get that money if that were 
the case?
    Mr. Card. The Administration will propose additional 
funding. We should know in the short term whether we would need 
that.
    Mr. Callahan. Where would the Administration propose we get 
the money out of, the energy appropriation somehow, or through 
rescission, or through where else do we get the money?
    Mr. Card. The specific mechanics of it, if it is all right, 
if I could respond to it in writing.
    [The information follows:]

   Funding Source for Additional Funds for Environmental Management 
                             Cleanup Reform

    The $800 million request for the EM Cleanup Reform Account 
would provide a pool of funds available to those sites that 
both demonstrate their ability to realign to a more accelerated 
risk-based approach, and provide to DOE specific proposals 
consistent with this new approach that achieve greater risk 
reduction, faster. If needed to complete required reforms at 
all sites, the Administration is prepared to support an 
increase of up to an additional $300 million for this account. 
We do not anticipate this as being offset by reductions to 
other DOE programs, or funding by a rescission.

            ENVIRONMENTAL MANAGEMENT CLEANUP REFORM ACCOUNT

    Mr. Callahan. Well, but we are concerned. Indications are 
already that $400 million of it has been obligated, and 
probably for that one obligation there is going to be 
additional millions--hundreds of millions necessary. And we 
just wonder, with that aggressive a program, where are you 
going to get the money if you anticipate that it is going to be 
successful? Why wouldn't they ask for more money now?
    Mr. Card. How we came up with the $800 million is we looked 
at how many communities or sites might be ready for this. 
Obviously there is a lot of interest in it. And discussing this 
with OMB during the budget preparation process, they are aware 
of how we derived the number. And I think what we would have to 
do is work with you and OMB to come up with the funding 
strategy for it. I think all of the parties are aware of the 
issue. And our intent is that each site that opts in would 
receive at least last year's funding level, and most would get 
more than that.
    So I think because of the complexities of that, it is 
probably better to give you a more clear answer, to work with 
the OMB and your staff and respond that way.

                          EXTERNAL REGULATION

    Mr. Callahan. What about external regulation over your 
sites? I know there has been some discussion of OSHA and others 
joining with you, or at least having some control. What is your 
position on that now, and what changes do you anticipate with 
respect to internal regulation?
    Mr. Card. Well, DOE executive management, including the 
Secretary, have conferred on that. We have concluded that we 
think external regulation is where we need to head. So we will 
be taking the requirement that was put in last year's bill for 
us to give you an implementation plan by the end of May very 
seriously.
    The issues for us right now aren't what we are going to do, 
but how we are going to do it. Just to give you an example of 
some of the things we are struggling with is in some of our 
facilities, the city--and some of them are small--is the normal 
OSHA regulator. So what we are trying to determine is if they 
are capable of doing that? Is that appropriate for them to do? 
Or do we need to have an arrangement with the State or Federal 
OSHA to be the regulator? So those are some of the things you 
will see coming out in the plan which we will be submitting to 
you on time.
    But we are planning to implement external regulation, 
probably on the OSHA side in Fiscal Year 2004. We probably will 
not do more NRC regulation in 2004, because NRC is heavily 
committed now on Yucca Mountain, the MOX plant in South 
Carolina, and two or three other things going on. So they are 
in a work force problem themselves, and we need more time to 
think through just exactly how we want to bracket off the 
facilities they would regulate.
    Mr. Callahan. Did they go in and do some preliminary pilot 
check or pilot program at any site?
    Mr. Card. Well, the uranium enrichment sites came under NRC 
regulation over the last 10 years.
    Mr. Callahan. OSHA, too?
    Mr. Card. I do not believe so, but I believe Berkeleywas a 
pilot, too. And we had done some thinking about this, too, at Thomas 
Jefferson. We had done some thinking about NRC regulation. There again, 
an issue in the accelerators, many States are agreement States, they 
would customarily be the NRC representative. We have to see, if the 
State has the capability to go from the normal things they would 
regulate to a big system like that?
    Mr. Callahan. In these programs that they looked into, what 
did OSHA find? Did they find any problems?
    Mr. Card. Jim, do you want to answer this since I wasn't 
involved in that.
    Dr. Decker. I am trying to remember the results of those 
pilot studies. I think that they found some things in these old 
laboratory buildings that are probably not totally in 
compliance with OSHA requirements of today. They don't 
necessarily represent safety hazards, but they simply aren't in 
compliance.
    Mr. Callahan. What happens if they do find something?
    Mr. Card. I think that is the essence of the implementation 
plan. Is we want to ensure----
    Mr. Callahan. I know what they do to private industry when 
they come up with all of those fines, but I just wonder what 
they would do to a government entity.
    Mr. Card. Well, how we plan to approach that is identify 
similar facilities in the region of each of our facilities and 
work with OSHA to say, here is how your program is working in 
these facilities where you have always been the only regulator. 
And we want to fashion, before we start, an MOU with you about 
how we compare to those facilities so we don't get special 
regulation. We want regular regulation.
    Mr. Callahan. Mr. Visclosky.

                              NANOSCIENCE

    Mr. Visclosky. Thank you, Mr. Chairman.
    Dr. Decker, last year we had a conversation about 
nanoscience research in the four proposed National Centers of 
Excellence. Could you tell me the status of that program?
    Dr. Decker. Yes, sir. Since last year we have undergone a 
number of reviews of the proposed centers. We have decided to 
move forward with design funding for three of those centers, 
and to start construction on one of them.
    We are requesting funds for design funding for the Berkeley 
center, for the one in New Mexico, which is a consortium of Los 
Alamos and Sandia Laboratories, and then we are moving forward 
with both design and construction at the Oak Ridge facility.
    Mr. Visclosky. Okay. And at Berkeley, who is the 
participating university or universities?
    Dr. Decker. There aren't any participating universities in 
terms of being integral parts of the proposals. What all of the 
laboratories have done is to seek input from potential 
university users of those facilities, and per our discussions 
last year, and a lot of discussions that I had with the staff, 
we have advertised workshops broadly so that all universities 
who wish to participate in those kinds of discussions have been 
given the opportunity to do so. Our workshops have been 
advertised in Commerce Business Daily. They have been 
advertised in scientific publications as well.
    Mr. Visclosky. Would that be the normal course of 
advertising those promises to those universities?
    Dr. Decker. It had not been done that way in the past, but 
you bringing it to our attention last year, we agree with your 
suggestion. We believe that that is a good idea. That is our 
intent for the future.
    Mr. Visclosky. And is advertising in Commerce Business 
Daily the normal course of action in terms of advertising these 
to universities and the scientific publications you have used, 
is that the normal course that you would use?
    Dr. Decker. Those are the best that we thought about. I 
mean, I would say that the scientific publications are the ones 
that are normally read by researchers, but we thought to 
totally cover our bases we ought to advertise in Commerce 
Business Daily as well.
    Mr. Visclosky. Okay. Are there any universities because of 
the advertising and workshops now connected with Berkeley? From 
my understanding of your answer, the answer is ``no'' at this 
point.
    Dr. Decker. That is correct. If we go forward with that 
facility, and that decision has not been made, it would be run 
by the Lawrence Berkeley Laboratory itself. There is not a 
university involved in the management.
    Mr. Visclosky. Okay. Now, on New Mexico is any university 
involved in that program?
    Dr. Decker. No, sir. Just the two DOE laboratories in the 
State of New Mexico.
    Mr. Visclosky. Okay. Have any universities expressed an 
interest in participating in that particular program?
    Dr. Decker. Early on the University of New Mexico had, but 
they are not part of the proposal and would not be involved in 
the management of that center.
    Mr. Visclosky. Okay. As far as Oak Ridge, I would have the 
same questions as far as is there any university involved at 
this point in time?
    Dr. Decker. No, sir.
    Mr. Visclosky. Okay. At what point do you think 
universities will become involved in these three facilities, 
and is there still a fourth under consideration?
    Dr. Decker. The universities are continually involved in 
terms of studying the course of what will be done in those 
centers through those workshops that are widely advertised. And 
certainly, once the facilities are completed, the use of those 
facilities will be wide open in terms of competition.
    What we expect is the university users along with 
industrial users will submit proposals, they will be peer 
reviewed and selected on the basis of merit.
    Mr. Visclosky. So you would have individual research 
programs take place at these centers. These centers would not 
be partnerships between a particular university or universities 
and a particular lab?
    Dr. Decker. That is correct. That is exactly right.
    Mr. Visclosky. A year ago that is what was going to happen.
    Dr. Decker. There was some confusion a year ago when I 
testified. I am not sure that I answered some of your questions 
very clearly last year. But that is the case as you described 
it.
    Mr. Visclosky. Let me ask you, you have other initiatives 
such as the Rare Isotope Accelerator under consideration. DOE--
maybe this is more for Mr. Magwood--plans to establish regional 
research centers for university nuclear engineering programs. 
What type of competition exists for those programs and 
initiatives, and what kind of advertising is being done?

                        RARE ISOTOPE ACCELERATOR

    Dr. Decker. With regard to the Rare Isotope Accelerator, 
the Department has not made a decision about moving forward 
with that project. We have not addressed the issue of sitingof 
that facility. Right now what we are doing is supporting research and 
development to determine the technical feasibility of building it. 
There are a number of institutions that are involved in doing that R&D, 
a number of universities, and at least one or two national laboratories 
as well.
    Mr. Visclosky. Okay. So it would be my impression that the 
position of the Department is whether it relates to the 
proposed Centers of Excellence for nanoscience, whether it be 
the isotope accelerator, whether it be nuclear programs or any 
others, that broad advertising to the academic and university 
community would take place, that competition would take place, 
and there would be no situation where there would be 
noncompetitive agreements entered into?
    Dr. Decker. Yes, that is correct.
    Mr. Visclosky. Okay. Thank you, Mr. Chairman.
    Mr. Callahan. Except through earmarks. Is that correct?
    Mr. Visclosky. There is a lot of competition for earmarks.
    Mr. Callahan. Mr. Doolittle.

                               FREEDOMCAR

    Mr. Doolittle. Thank you. Mr. Secretary, when do you expect 
to have this FreedomCAR developed?
    Mr. Card. I guess I would refer that to Dave Garman, who is 
in charge of that, if that is okay?
    Mr. Garman. We have a series of technical milestones that 
we hope to achieve focused on systems and components that would 
compose a new hydrogen fuel cell vehicle. It is important to 
remember that FreedomCAR is not a car, per se, but a program to 
develop a wide range of those systems and components that can 
be applied in any vehicle.
    We have a rather stringent series of technical milestones 
for the next decade. If we are successful in achieving those 
technical milestones, I would envision us having the capacity 
to build, or the automakers to have the capacity to build a 
hydrogen fuel cell car and to make that decision as to whether 
or not to do commercialization somewhere in the 2013 to 2015 
time frame. So it is not something that will happen quickly.
    Mr. Doolittle. Is hydrogen as explosive as gasoline?
    Mr. Garman. It has different characteristics. In some ways 
I think it is safer. It is an explosive gas, but because it is 
lighter than air, in the event of an accident that would breach 
a hydrogen storage tank, instead of what you have when this 
happens in a gasoline vehicle where the gasoline splits open, 
spreads below the vehicle and ignites, engulfing the vehicle in 
flame, you have a situation where the lighter-than-air hydrogen 
moves upward, and any fireball that might occur moves away from 
the vehicle and its occupants.
    Mr. Card. Just to add in the oil and chemical industry, 
they use large quantities. In fact, there are several hydrogen 
pipelines, including one in California, if I am not mistaken, 
but many in the Gulf Coast and Great Lakes area, some 300 miles 
of hydrogen pipelines and other infrastructure used in that 
industry safely.
    Mr. Doolittle. Thank you.
    Well, I think that is an exciting program. I commend you 
for it and offer whatever support I can give.

                               HYDROPOWER

    How come you are so anemic in the hydropower program? I 
mean, I looked at all of those things you are spending money 
on, it is the least of all of those things. And all you are 
spending money on, according to this, is fish-friendly turbines 
and trying to reduce the quality of dissolved gases. This isn't 
the Clinton Administration. What is going on here?
    Mr. Garman. That is a great question, and we do regard 
hydropower as an extremely important renewable energy resource.
    Mr. Doolittle. Well, may I say you wouldn't know it through 
your budget.
    Mr. Garman. Actually we have proposed a substantial 
increase. And this program, the fish-friendly turbine, has been 
drifting for years. Frankly, a lot of those funds in the 
hydropower program have been earmarked to build actual 
projects, and we would like to accelerate the work on the 
turbine program.
    Mr. Doolittle. How about turbines that are more efficient 
and generate more power? If they are fish-friendly, so much the 
better.
    Mr. Garman. Well, as you know, part of the challenge that 
we face today is keeping our existing hydropower resources in 
operation, as many of them are facing relicensing activities. 
And part, we believe, of the long-term success in being able to 
relicense these facilities and to keep this very important 
hydropower resource online, is to ameliorate some of the 
concerns that have been expressed about the environmental 
impacts of the hydropower turbines. We are very anxious to 
complete work on this program and get it out into the field, 
hopefully beginning with Bonneville Power and some of the other 
Power Marketing Administrations, and to show success so that we 
will have an easier time relicensing and keeping this 
hydropower resource working for the country.
    Mr. Callahan. To the gentleman from California, we only 
have a couple of minutes left to vote. You can resume 
questioning when we get back.
    My simple solution. I think I failed high school chemistry, 
but if you have hydrogen leaking, it is obvious to the layman 
that if you just put one part of oxygen there, it would create 
water and put the fire out, wouldn't it?
    [Recess.]
    Mr. Wamp [presiding]. I am going to call this meeting back 
to order and recognize the gentlelady from California.
    Mr. Doolittle. I haven't finished my questions yet.
    Mr. Wamp. I am sorry. Mr. Doolittle.
    Mr. Doolittle. Thank you.

                         HYDROPOWER RELICENSING

    You mentioned the issue of hydropower relicensing. It is my 
understanding unless and until that law is changed, we face the 
prospect of losing a considerable amount of our hydroelectric 
power generation? Could you tell us what plans the 
Administration has to deal with precluding that loss?
    Mr. Garman. Yes, sir. That is a little out of our realm, of 
course, because most of the aspects of hydropower reregulation 
are both in the hands of the Federal Energy Regulatory 
Commission and some of the intervening agencies such as the 
Fish and Wildlife Service or the Department of the Interior, 
and those are the ones.
    And about the only thing I can offer you, sir, is the 
recognition that, yes, it would be a tragic thing if what 
produces the vast majority of our renewable energy, hydropower, 
were to decline on our watch. Currently 11 percent of our 
electricity is produced by renewableresources, and 9 percent of 
that is from hydropower. It is by far the overwhelming majority of our 
renewable energy resource.
    It is important that hydropower relicensing reform move 
ahead. There are several bills in Congress to do that, to try 
to streamline and ease the process and make it easier to 
relicense hydropower. And you are absolutely correct, 
Congressman, when you say the danger is in keeping the 
hydropower resources that we have. I haven't heard many express 
the willingness or the desire to build new hydropower resources 
in the lower 48. And frankly, the largest opportunities to do 
that have been built. Instead, the political discussion seems 
to be centering around breaching dams and eliminating those 
resources.
    Mr. Doolittle. Well, you and I are going to have to get 
better acquainted, because we are very desirous of building at 
least one near my area, and actually I think many new dams need 
to be built, in California at least, to help meet our water 
needs.
    I was frustrated in another hearing here. The Secretary of 
the Interior was very timid in her statement about dams. And 
there were folks with all of those wonderful green-type 
projects just like your fish-friendly turbines. And the anemic 
amount of money I see in the hydropower budget, may I encourage 
you to emphasize more in the area of hydropower. And be bold. 
Support some dams. It would be good for America.
    Mr. Garman. Yes, sir.
    Mr. Callahan. Ms. Roybal-Allard.

                            HYDROGEN ECONOMY

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    I would like to follow up a little bit on what Congressman 
Doolittle's line of questioning was with regard to the 
hydrogen-fueled vehicles. It is my understanding that the 
amounts of hydrogen that are required to make a substantial 
positive impact on both the environment and energy security are 
quite large, and I would like to know what DOE is doing to 
address the production of hydrogen required for hydrogen 
economy, and are you looking at other potential production 
sources, including nuclear power?
    Mr. Garman. Yes, ma'am. One of the advantages of hydrogen 
is that it can be produced from a variety of domestically 
available resources. Hailing as I do from the Office of Energy 
Efficiency and Renewable Energy, our focus is, of course, on 
opportunities to develop that hydrogen from renewable resources 
over the long term. We think that is possible through biomass 
resources, through the use of wind and solar in combination 
with electrolysis or reversible fuel cells.
    But you are absolutely correct. A hydrogen vehicle 
infrastructure would require a lot of hydrogen. Across the DOE 
complex, fossil energy is looking at ways to produce hydrogen, 
better ways to produce hydrogen from natural gas and even coal. 
If coal can be gasified, and the carbon dioxide and some of the 
other undesirable elements of that, such as sulfur, can be 
sequestered and just leaving us with good, clean hydrogen, this 
would be a tremendous domestic resource that could be turned 
toward the production of hydrogen.
    For the near term, we envision that most of the hydrogen 
that we are able to produce will come from natural gas. The 
technology is proven, and it is done every day, as Under 
Secretary Card indicated earlier.
    Mr. Card. Let me just add that every one of our energy 
groups has a hydrogen program to look at how they would make--
and, of course, what we would like to do is get to a point 
where we are not using natural gas as our primary feedstock, if 
possible. Nuclear Energy has a program, Fossil Energy has a 
program, even Science is looking at bugs that produce hydrogen.
    Ms. Roybal-Allard. You are also looking at nuclear power 
then?
    Mr. Card. Yes.

                           NUCLEAR POWER 2010

    Ms. Roybal-Allard. Okay. You have proposed a Nuclear Power 
2010 program, which you describe as a program of cost-shared 
cooperation with industry to develop and advance nuclear 
technologies and to demonstrate new regulatory processes that 
will result in the start-up of new nuclear plants in 2010.
    Since the safety and the cost of nuclear energy have always 
been a primary concern to the public, what advances are there 
in technology that lead you to believe that the Nation would be 
ready to accept the building of nuclear power plants again, and 
is there any plan to do some kind of an education program to 
help the public to understand this new technology?
    Mr. Card. Yes. Well, certainly a lot of education is 
needed. I saw a poll the other day that suggested that 
something like half the people don't even believe that nuclear 
doesn't emit CO2 and other pollutants, and until we can get 
across those basic thresholds, we have a big challenge.
    The focus of the 2010 program is really an infill in that 
20 percent of our electricity comes from nuclear today. Really 
we either need to be in a rejuvenation or a replacement 
mindset. I don't think if--people are serious about climate 
change, it isn't clear to me how we are going to get to a 
serious replacement mindset for that.
    So clearly this Administration, DOE, is focused on getting 
a sustainable industry, and we have to get something between 
now and the start of the Generation IV reactors. And, frankly, 
that technology is already being built today offshore in Taiwan 
and other locations. So what we need to do is to try to figure 
out how to stimulate that technology here.
    I think cost is really the key issue right now. The 
industry has a terrific safety record from their earlier 
shortcomings. And production is up. But for the specific 
details, I am going to turn to Bill Magwood to respond.
    Mr. Magwood. I think that our confidence that this is a 
good time to look at new nuclear power plants comes from the 
fact that there are technologies which are becoming available 
over the next few years that do provide potential advantages in 
terms of safety and cost over what we do today. Not that what 
we do today is bad, but I think we can make improvements.
    Let me give you a couple of quick examples. There is a 
great deal of interest in Westinghouse's new design, the AP-
1000, which is a derivative of a design that DOE made 
significant investments in over the last decade. The 
Westinghouse designs apply passive safety systems, which we 
believe provide a great deal of advantage in terms of safety, 
but also the plant would have fewer parts than current nuclear 
power plants, making it much more cost-effective.
    But at the end of the day, it will be the industry that 
will have to make the decision as to whether to build new 
plants. Unless there is a business case for building a new 
nuclear power plant, nonuclear power plants will be built. We 
are not going to subsidize the industry to build new plants, but what 
we are going to do is help clear the way to make it possible for 
industry to make it a business decision by dealing with some of the 
regulatory issues.
    Ms. Roybal-Allard. So do you feel confident that there will 
be a candidate then that will, you know, be able to step 
forward and to match that Federal funding requirement?
    Mr. Magwood. We have asked our advisory committee, the 
Nuclear Energy Research Advisory Committee, to independently go 
forward and look at what is possible, and they have reported 
back to us that there are a series of technologies that can be 
ready in the time frame that we have talked about, by the 2010 
date. Based on discussions with industry, there are utilities, 
that are looking very, very closely at near term deployment.
    And so, we think that there is a great deal of likelihood 
that the industry is ready to respond to the first step that we 
are taking, which is cooperative work in demonstrating the 
early site permit process. We believe that there will be 
probably more takers than we have dollars to support.
    So we think at least in this early step we are going to see 
the utilities step up.

                       OFFICE OF SCIENCE FUNDING

    Ms. Roybal-Allard. The administration has proposed 
tremendous increases for both military research and biomedical 
research at the National Institutes of Health. Yet the DOE 
Office of Science, which is the largest supporter in the 
Federal Government of the physical sciences, has been 
essentially flat-funded for a decade or more. And given the 
importance of these sciences to U.S. Technology and to our 
pursuit of energy independence--and, in fact, I think even in 
your own written statement you mentioned here that this kind of 
basic research portfolio with its emphasis on sustained 
investment and knowledge creation that results in scientific 
discoveries enabling tomorrow's technology is a cornerstone of 
the Administration's efforts to maintain our Nation's overall 
security.
    So could you explain, given the importance of this program, 
why essentially if you look at your budget here that the 
funding is flat?
    Mr. Card. Let me start to explain and I will hand it off to 
Dr. Decker if I need help.
    First of all, the science budget is actually better than it 
looks, and we fully support it, too, I mean to the bottoms of 
our souls, for two reasons. One, there are programs that are 
being discontinued or need less money this year, so our actual 
flexibility is greater than it appears just from year to year 
budget numbers.
    Secondly, I think we certainly share the concern about 
keeping pace with the other programs, but we want to make sure 
that we have a quality investment proposal to give to you and 
the Administration to get there, and that is what we are 
planning on doing, at least internally, for 2004. We will see 
where we go with that because there are a number of things to 
do.
    But we want to make sure it is not just about more money. 
It has got to be about more output for the country. There are 
some impressive contributions that--I was reminded the other 
day that one in three hospital patients, either through 
treatment or diagnosis, benefits indirectly from the technology 
developed in the nuclear and high-energy physics arena, and the 
former Director of National Institutes of Health clearly 
recognized that connection and had supported more funding for 
basic physical science research as well.
    And, Jim, do you want to add anything?
    Dr. Decker. No.

                      NANOSCIENCE RESEARCH CENTER

    Ms. Roybal-Allard. I believe it was in response to an 
earlier question by Mr. Visclosky that you said that the final 
decision to go forward with the nanoscience lab at Berkeley had 
not been made. What is your timetable for that decision?
    Dr. Decker. We are providing the Lawrence Berkeley 
Laboratory with engineering and design funding, or that is what 
we are requesting in the 2003 budget. I believe there is a 
total of about $6.8 million for design. And we will make a 
decision about moving forward with that center once they have 
completed their design and we can review it. So it would be a 
candidate for construction start in the 2004 budget.
    Ms. Roybal-Allard. Okay. And what special aspects of 
nanoscience are you planning to investigate at Berkeley?
    Dr. Decker. The Berkeley Center would be, again, a user 
facility. It would be closely coupled to some of the major 
facilities that exist at that site. At the Advanced Light 
Source, there are some one-of-a-kind, state-of-the-art electron 
microscopes there. And there is a planned emphasis on the 
interface between soft and hard materials with some emphasis on 
interaction of biological materials.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. It is amazing to me, Mr. 
Doolittle talks about he wants to get to know you a little 
better and everywhere I go, I can't shake you guys. I am just 
kidding, because it is a great relationship and I do appreciate 
the skill sets and leadership that each of you bring to this 
job today, and particularly Secretary Card, for you to step up 
and serve our country in this most important role. It is very 
encouraging. And you are on your way to Tennessee here this 
week.

                      NEW NUCLEAR POWER GENERATION

    I wanted to pick up on Ms. Allard's questioning on nuclear 
energy just for a moment. There may be a widespread 
disagreement throughout regions of the country on nuclear power 
and maybe they don't want a new nuclear plant in the State of 
California. But I would ask, wouldn't it make sense as we move 
through the 2010 nuclear goals of this Administration to look 
at regions maybe like the Tennessee Valley region where we have 
nuclear assets that weren't completed under an overly ambitious 
plan from the 1970s, reactors that you will actually see this 
week that are maintained but never were brought online? It 
would be a logical step. Plus maybe coming to a region where 
the publicwould support the finishing of a nuclear plant, 
whereas maybe they won't in other parts of the country. You know, the 
big disagreements in this country for the future might not come down 
party lines. They might come down geography. And in the Southeast we 
have a host of these reactors in a program. That is where most of our 
stranded cost comes from, the TVA region.
    We are very heavily reliant on coal-fired plants and there 
is a lot of public opposition to the emissions and a lot of 
public support for ramping down of those emissions. Therefore, 
our nuclear reactor program at TVA, where five reactors are 
online. It is actually very, very efficient and very reliable, 
very safe. And the last reactor brought online, commercial 
reactor in the United States of America, was a TVA reactor.
    Can you comment as you come to TVA this week on those two 
assumptions, that you probably look to an area where we have 
some assets existing so you don't have to take a green field 
site and start from ground zero and, secondly, come into a 
region where the mindset is very supportive of nuclear energy 
as a safe, clean alternative to coal-fired plants?
    Mr. Card. Well, certainly TVA--and there are other 
unfinished plants. One of my objectives is to understand the 
business case because the driver, at the end of the day of why 
they are or are not being done, will be the business case 
providing that Congress supports the changes in Price Andersen 
which was passed in the Senate the other day, and you will be 
faced on a decision with Yucca Mountain this year.
    Assuming those two bridges are crossed, then I think the 
utilities can look at this from a financial risk perspective.
    We are trying to make sure that we understand how they 
perceive that, if there is any help that makes sense for the 
American taxpayer that we can provide to get by those issues. 
So I will be anxious to hear their story. Obviously I think 
every energy producer would rather be in a place that wants 
them than a place that doesn't. So I am sure they would be 
looking for locations like you described.

                     FACILITIES AND INFRASTRUCTURE

    Mr. Wamp. Office of Science, Dr. Decker or Secretary Card, 
two questions here. The facilities and infrastructure accounts 
that we have now begun to fund under an agreement between the 
executive branch and legislative branch and now request for the 
coming year, what progress has been made in this fiscal year? 
What are the plans for the future for facilities and 
infrastructure upgrades throughout the DOE Science complex, Dr. 
Decker?
    Dr. Decker. Mr. Wamp, you touched on a very important 
problem across the whole DOE complex of laboratories. As you 
know, these laboratory facilities were built many, many years 
ago. We have a lot of aging infrastructure. Thanks to the help 
of this Committee, we received an additional $10 million to try 
to eliminate some of the excess facilities that we have. Your 
language required us to spend a certain percentage on removing 
excess facilities of that $10 million. In fact, what we decided 
to do was to use all $10 million for that purpose.
    In addition, we have increased in the 2003 request our 
infrastructure budget by six million. I think it is now a total 
of $43 million. We are planning to use about five million of 
that for removing excess facilities.
    We have developed a plan for the whole of the science 
complex and are trying to set priorities for removing both 
excess facilities and building new facilities. And that is what 
we are embarking on right now.

                             REORGANIZATION

    Mr. Wamp. Dr. Decker, last week in my office we talked 
about a proposed reorganization within the Office of Science 
kind of complexwide, and can you tell the Subcommittee today 
and our professional staff that--can you give us a status 
report on that and assure that us that before any significant 
changes are made that we will know about it?
    Mr. Card. I will assure you on the last point. We are 
looking at all the functions in DOE to see if we are best 
organized to suit our mission needs, and I think most groups 
are taking a hard look at that. Obviously Environmental 
Management has already done some things. And so one of my major 
initiatives is to streamline and achieve efficiency. I have 
asked Science to take a look at how they might do that. I think 
you know we are off target sometimes, but you can rest assured 
that you will be contacted before we do anything. And the other 
key Members as well.

                         DOE RESEARCH ISOTOPES

    Mr. Wamp. Mr. Secretary, can you give us the status of the 
procurement for the extraction of alpha-isotopes from excess 
uranium 233?
    Mr. Card. I am recused from that project. Somebody else?
    Mr. Magwood. Yes, I would be happy to respond. Before we 
are able to issue the Request for Proposals to do the work, we 
are obligated to provide this Subcommittee and the 
corresponding Committee in the Senate a report on the 
anticipated life cycle costs and a plan to implement the 
program. We have essentially completed the report to Congress, 
and it is proceeding through final review within the 
Department. I expect we will be in a position to send that to 
you very soon, hopefully within the next few weeks.
    Mr. Wamp. One final question, Mr. Chairman. As the co-
chairman of the Bipartisan Renewable Energy and Energy 
Efficiency Caucus here in the House--I see Mr. Garman shaking 
his head--I am going to speak here at lunch today to a group 
gathering downstairs on renewables and energy conservation.
    I first want to thank Kevin Cook on our professional staff 
and Chairman Callahan for this current fiscal year increase in 
funding for renewables for the current year above the 
President's request so that we are at a level that matches the 
President's overall energy strategy which is clearly directed 
at alternative energy sources and renewable sources, and having 
a balanced energy approach with conservation and new energy 
capabilities generation capabilities. But I want to 
specifically talk about the biomass feedstock. We had a 
proposal in the Tennessee Valley region for switch grass. I 
just want to get an update of what kind of technology 
breakthroughs are there, where should we put the resources and 
just an overview of where we are with renewables as they relate 
to biomass or geothermal. We hear a lot about wind and solar 
and we should add hydro, but what about biomass and even 
geothermal?

                         BIOMASS AND GEOTHERMAL

    Mr. Garman. We have some new focus in the biomass program, 
which I think it is very important to try to describe for the 
Committee. In the past, the biomass program has been scattered 
with independent activities pursuing liquid fuels from biomass 
or power from biomass or, in some cases, products from liquid 
derived from biomass. We feel it is very important to integrate 
these activities in a way where the business case for each of 
them comes much closer to reality, integrating these activities 
into a single bio refinery concept where we can derive the 
benefits from products. It actually provides some of the 
economic help forsome of the other areas of biomass so that the 
enterprise as a whole can be cost-effective and move ahead.
    We are between this Appropriations account and another 
appropriations account seeking over $100 million for biomass 
work. We regard it as extremely important. And that will 
continue to be a priority of the Administration, as indicated 
in the national energy plan.
    With respect to geothermal, we are requesting relatively 
flat funding for that, but again we are shifting the focus and 
the emphasis of that program. Geothermal drilling has not 
advanced the way the petroleum drilling has. Today on Alaska's 
Morning Slope when you drill for oil, you have an almost 100 
percent chance of hitting it because you have done 3D seismic 
work and you have directional drilling as a tool to assure your 
success.
    Contrasting that with geothermal, you are only successful 
20 percent of the time and it costs you $300 a foot to drill 
the well. We think that by increasing the success rate to 40 
percent and cutting the cost of drilling will actually bring a 
lot of marginal geothermal online and make that a much more 
important base load provider of renewable energy. Our funding, 
while relatively flat, we have done that programmatic shift and 
are proposing that programmatic shift.
    I think those are the highlights. I would say one other 
thing about solar, though. We are emphasizing the long term 
development of thin film photovoltaic. We think that is 
extremely important. Today solar is relatively and 
comparatively expensive at about 25 cents per kilowatt hour for 
photovoltaic. But it is our hope to bring that down to about 
five cents a kilowatt hour. We believe we can do that over the 
next 20 odd years by both increasing the efficiency of thin 
photovoltaic and also reducing the cost of producing it. If we 
can do those things, then you will see solar enter the market 
in a much larger way.
    And finally just a word about wind. We have increased our 
request for wind power and we have done so with an emphasis on 
low speed wind. Today we have been very successful with utility 
scale wind projects and in very high wind areas. Unfortunately 
those areas tend to be a good distance away from population and 
load centers where the energy is actually needed. We are 
launching a new initiative to try to accelerate the development 
of wind turbines that can work in areas where the wind doesn't 
blow quite as hard. That would bring the turbines closer to the 
point of use and the point of need.
    So that is the logic behind some of the changes that we 
have made in our renewable energy account.
    Mr. Wamp. Should this Committee just further research in 
these areas of biomass and geothermal or should we fund a 
combination of research and demonstrations projects to see 
where the technology can hit the ground and work?
    Mr. Garman. We believe there are areas where demonstrations 
make sense. That pathway between basic research and 
commercialization, demonstration needs to occur.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Callahan. President Ford once told me that his biggest 
mistake during his brief presidency was the signing of the bill 
that created the incentive for people to create these windmill 
farms because esthetically he says it has destroyed the beauty 
of our countryside. Of course, he resides in Palm Springs, and 
the only way you can get there is through a couple of windmill 
farms. But I thought that was sort of strange that he said that 
is the thing he most regretted.

      RELATIONSHIP OF BASIC RESEARCH TO NATIONAL SECURITY MISSION

    There may be some repetition of these questions as we go in 
and out, but the Department has emphasized the overarching 
mission of national security. We have no problem with that and 
we want attention paid to that, but with respect to our basic 
research, what will happen to the basic research in areas such 
as particle physics or functional genomics? What about those 
things? We are interested in those, and if all of the interest 
is going to--all of the efforts are going to be put towards 
national security, what is going to happen to these programs?
    Mr. Card. Our view on that is you can easily trace the key 
developments in national security back to basic research. We 
believe basic research has two important functions. One, it 
serves as core competence. It is just on the leading edge, I 
would say, of 20 years out from when we are going to need it 
for national security.
    It also plays into our energy security and economic 
security which we include as part of our national security 
thinking and our portfolio. Secondly, we do realize that we, 
DOE, somewhat uniquely in the government, operates these big 
devices that are used by thousands of people that aren't 
affiliated with DOE except as users. So we recognize that part 
of our mission as well as to support that. But then when you 
look at what those users are doing, they are also contributing 
directly into those national security elements.
    I think the anthrax scare that we had last fall is an 
example of where it was amazing how the research we had been 
doing over decades was readily applied in short term for major 
payoffs in dealing with that problem, both in identifying where 
it came from or it didn't, in that case, and also remediating 
it. So we are committed to the basic research part of that 
mission.

                             YUCCA MOUNTAIN

    Mr. Callahan. Mr. Secretary, let's talk about in general 
terms Yucca Mountain and the what-ifs of Yucca Mountain. Do you 
believe that we can have any new nuclear reactor plants or 
reactors unless some resolve is finally reached on whether or 
not Yucca Mountain is going to be open, or we are going to have 
to wait until this issue goes through the courts and through 
the delaying process, and that it is obviously put about--what 
about new plants? Do you think there is any possibility of a 
new reactor before that is resolved?
    Mr. Card. That would depend on, obviously, the individual 
utility, but it would be hard for me to imagine a CEO of a 
utility going to the board of directors seeking approval for a 
new start without fuel disposition resolved. And the only tool 
that we have been provided with by the Congress for fuel 
disposition right now is Yucca Mountain.
    Mr. Callahan. What about the what-if? What if somehow or 
another Senator Reid and others, Senator Daschle, if they do 
find a way to block this? What, I mean, happens then?
    Mr. Card. Our reading of the law, which is always subject 
to interpretation, is we would eagerly await Congress's 
instructions to us as to what to do next. There is no ``what-
if'' specified in the law. My intention would be to terminate 
operations at Yucca Mountain as swiftly as possible at that 
point because we view it as a dead issue. So I assume we would 
be in a sit-and-wait until Congress concluded and directed us 
to look at either an array of alternatives.
    Mr. Callahan. What do you think it costs to shut downYucca 
Mountain? What would the cleanup costs be there?
    Mr. Card. There shouldn't be a lot of cleanup costs. It 
would depend on what the shutdown was to look like.
    Mr. Callahan. If they were able to block it and we said, 
no, we are not, we have spent billions and billions of dollars 
digging that hole and now we are going to spend billions and 
billions of dollars filling it back up, or are they going to 
turn it into a theme park? And then what do we do? We are going 
through some type of crash program and say we are going to find 
a way to do as they do in France or some other countries to 
store these spent fuels at the site? What do we do?
    Mr. Card. Well, it is my understanding that some power 
plants will have to rush for some sort of storage and some of 
them don't have a configuration that is handy for that. They 
will have to shut down. The unfortunate thing is the fuel will 
still all be there and no power will be coming out of the plant 
if that happens, resulting in a lot of maintenance costs. 
Because I have confidence that the Congress is going to support 
the President on this, I haven't spent a lot of time on it 
because the possibilities are so hard to comprehend, I haven't 
felt it has been a good investment. But if it looks shaky, I 
will have to do that.

                   NUCLEAR ENERGY PLANT OPTIMIZATION

    Mr. Callahan. What is the Department's reason for not 
requesting funds in 2003 to continue the NEPO activities?
    Mr. Card. I will take a shot at that. Bill, you can jump 
in. It was really down to a point where we had to make 
optimization decisions within the budget. We thought those 
activities were good ones. But they are relatively more 
connected with the utilities than other things that we are 
doing, and we are hoping that they pick those up. So just in 
our prioritization, when we hit the amount of money we thought 
was appropriate, there wasn't enough left over to justify that.

                          PERFORMANCE METRICS

    Mr. Callahan. The Committee requested in this year's report 
language, I guess it was, the question of metrics that the 
Department was directed in the House report. We requested in 
the report that you submit some information back to us. That 
has not been done, I don't think, at this point, and why not 
has it been done?
    Mr. Card. First of all, I would say it should have been 
done. It has been one of the most frustrating things for me. 
And it has turned out to be a lot harder than we thought to 
really get crisp, meaningful metric. We are operating a pilot 
with OMB on that, and my hope is in the near future that we 
would have something we are proud of. I think EERE has kind of 
been one of our internal pilots in that pilot and I think we 
are making some good progress, but we are not there yet. So I 
apologize that we are not in better shape.
    Mr. Callahan. When do you think you will be in better shape 
to report to us?
    Mr. Card. I would want to have an exact understanding of, 
before I answer that, of your specific request, but on the 
overall package I would say it is in the next few months.
    Dave.
    That is my guess where we are with that.
    Mr. Callahan. Mr. Latham, questions? Mrs. Emerson?
    And also to the Members of the Committee, today is the St. 
Patrick's Day luncheon, and I have to attend that meeting at 
12:00. So I would like to wrap this up if we could before 
lunch.

                 RENEWABLE ENERGY PRODUCTION INCENTIVE

    Mrs. Emerson. I will stay within my time, Mr. Chairman.
    Thank you, Mr. Secretary. It is my understanding that the 
Renewable Energy Production Incentive was created in the Energy 
Policy Act of 1992 to help communities served by municipality 
electric utilities and rural electric co-ops invest in 
renewable energy projects. And REPI, I guess the recognition is 
that credits that the not-for-profit electric utilities can't 
utilize the production tax credits for renewable energy that 
the for-profit utilities can use. So if our goal is to increase 
renewable energy use in the country, then I think the not-for-
profits need to have some tools, some type of Federal 
incentives that have been provided to the for-profit utilities. 
Can you tell me what the current backlog of projects awaiting 
funding through the REPI program is, and do you happen to know 
and do you know what the backlog was in 2001?
    Mr. Garman. I will have to provide that for the record.
    [The information follows:]

              Renewable Energy Production Incentive (REPI)

    What is the current backlog of projects awaiting funding 
through the Renewable Energy Production Incentive (REPI) 
program? What was the backlog in 2001?
    REPI projects consist of Tier I and Tier II projects. Tier 
I projects consist of qualified solar, wind, geothermal, and 
closed-loop biomass technologies. Tier II projects consist of 
open-loop biomass technologies, such as landfill methane gas, 
biomass digester gas, and plant waste material that is fired 
(either 100 percent biomass or co-fired with another fuel) in a 
generation facility to generate electricity.
    There is currently no backlog of Tier I projects. Tier II 
projects that have unpaid electricity production as of December 
of the previous year are provided in the tables below. The 
``backlog'' reported in the tables is from the last year of 
production as well as from years prior to the last year of 
electricity production. The information follows.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 RENEWABLE ENERGY PRODUCTION INCENTIVE

    Mr. Garman. You are absolutely right, REPI is designed to 
provide public power entities with incentives that are not 
available to them by virtue of the fact that they are not--they 
don't have a tax burden against which to apply a credit. We 
have asked for an increase in the REPI program over the amount 
provided to us by Congress last year, a small increase, 
admittedly, but an increase nevertheless. It is our goal to 
increase the total number of new renewable energy products, 
projects at publicly and cooperatively public utilities to 2002 
to 73. So we are on a pathway and we will fund projects to the 
extent that Congress provides us the resources to do that.
    Mrs. Emerson. It is just that we talk and talk and talk 
about renewables and how important they are for lots of 
reasons, but yet we are not putting the funds, you know, where 
our mouth is. So it is kind of frustrating, particularly for 
our not-for-profit utilities.
    Mr. Garman. As I said, we will provide you the backlog 
lists for the record.
    [See information on previous page.]
    Mrs. Emerson. I would appreciate that. I really don't want 
to take any more time, but I am concerned that those funds 
aren't there or perhaps if they are not in your specific budget 
line item. If you know where we can tap into others, that would 
be awfully good as well. Thanks. Thank you, Mr. Chairman.
    Mr. Callahan. Thank you. Pete.

    RENEWABLE ENERGY RESEARCH FUNDING AT UNIVERSITIES AND NATIONAL 
                              LABORATORIES

    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Garman, the 
budget request for renewable energy resources is increasing 
this year's budget by about 3 percent. The funds to be expended 
at the laboratories for renewables are increased by 18 percent 
and the funds for universities for renewables are cut by 7 
percent. Why this shifting in emphasis to the labs from 
universities?
    Mr. Garman. I am going to provide you with a better answer 
for the record that I can provide you here verbally.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
  RENEWABLE RESEACH FUNDING AT UNIVERSITIES AND NATIONAL LABORATORIES

    Mr. Garman. A part of that could be a consequence of some 
projects ending and new starts beginning making this appear 
somewhat anomalous. But let me do that for the record, but only 
add the recognition that we do view universities as an 
important partner in renewable energy search research. Let me 
give you a better answer than that for the record.
    Mr. Visclosky. I would appreciate it. Because my concern is 
with a 3 percent increase, if we are lucky, that covers 
inflationary costs and might also represent a cut. Obviously if 
we are going to have a partnership with the universities, that 
differential to what increases go to the lab versus a 
university is fairly significant, in my mind. If we could stay 
on the subject of renewables, too, Los Alamos and Sandia are 
part of the National Nuclear Security Administration and their 
primary responsibility is national security. They are also 
designated as lead DOE laboratories for specific hydrogen 
technologies. Why is that?
    Mr. Garman. It is mainly a function, sir, of where the 
expertise exists. Different labs have different levels of 
expertise. At Los Alamos we do have a high level of expertise 
on some of the membrane technology that is very important in 
the fuel cell stack. Some of the leading scientists in the 
world on this subject are located there. And last time I 
checked with them, they weren't inclined to leave there and go 
somewhere else.
    Mr. Visclosky. Like Alabama or Tennessee.
    Mr. Garman. I can't understand their logic, what with the 
attractiveness----
    Mr. Callahan. We are going to have the Yucca Mountain 
project in Alabama. That is the building of it and then not 
accepting it and cleaning it up. We want the industry.
    Mr. Garman. But we found sometimes the technologies 
developed in the weapons labs have provided a great deal of 
utility in some of the work that we do. Another example at 
Sandia is some high speed computational activities that were 
originally developed, I imagine, for the stockpile stewardship 
program. This is helping us build and understand what goes on 
inside the combustion chamber of an automotive vehicle, which 
helps us increase efficiency and lower emissions. So sometimes 
there are serendipitous benefits of one line of scientific 
inquiry that we find provides a benefit elsewhere.
    Mr. Visclosky. You mentioned Sandia. They also are taking a 
lead role on your geothermal drilling research that you had a 
previous conversation about, too.
    Mr. Garman. Yes, sir.
    Mr. Visclosky. Do you think that has a relationship to 
national security?
    Mr. Garman. Where they develop this expertise, you know, 
perhaps in drilling underground test tunnels.
    Mr. Card. Actually Sandia has been kind of interesting. The 
Department's underground lab--in a way, they are the key 
support contractor to the Strategic Petroleum Reserve and Yucca 
Mountain as well. So my guess is that where they got positioned 
for the technology in that and perhaps in test design at the 
Nevada test site.
    Mr. Visclosky. Also in the area of renewables, Los Alamos 
is a lead laboratory for high temperature super conductivity. 
So I assume your answer would be the same on that.
    Mr. Garman. Yes, and Oak Ridge does a great deal of work in 
that area, too. The work follows the expertise. When a lab 
develops and demonstrates a certain amount of expertise and the 
leading scientists in the world are located there, they will 
tend to win the competition for the work.

      INCREASED FOCUS ON NATIONAL SECURITY AND REDIRECTION OF WORK

    Mr. Visclosky. Another question on science--and the 
Chairman addressed the issue of the Secretary's statement of 
mission on national security. If there is an increased focus on 
national security and a redirection, could any of you on the 
panel tell me what work is now not being done at the labs that 
was done last year?
    Mr. Card. Yes. First of all, the review was just completed. 
So it was really too late for the FY 2003 budget submittal. So 
you are not seeing anything on the FY 2003 budget request on 
that. It will show up in the FY 2004 budget request. Wehave 
identified about 10 projects that we think will be better placed 
elsewhere. And we are involved in, just to clarify, in two sets of 
reviews. One is a mission review, whether it should be in or out of the 
Department. Another one is effectiveness review of even if it is in our 
mission, is it worthy of funding.
    So what I am speaking of now is simply does it belong in or 
out of the projects that are value added, that don't belong 
here. We would propose transferring the project and the funding 
to another agency like NIH. We have one project in mind that 
looks more like an NIH thing, but we are not prepared to 
announce those yet. But in the next several weeks perhaps we 
would be ready to disclose that.
    Mr. Visclosky. I guess I would just close by making a 
comment that obviously I have a concern about ensuring 
competition in scientific research in the United States, and I 
can appreciate if people are well established, they have their 
colleagues, they have other personal relationships in the 
community, that they are not inclined to up and move every 
couple of years, as people in the military do. I am not 
suggesting that that happen. But I am concerned, after a number 
of years on the Subcommittee, that the rich get richer here. 
And that I think it is incumbent upon those making decisions 
not to uproot people. I am not suggesting we close labs, but 
that there be a certain analytical focus as to how this wealth 
at the labs, this expertise as new programs are initiated, 
taken, can see some diffusion across 50 states as opposed to a 
focus in several. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Secretary, Mr. Garman, Dr. Decker and Mr. 
Magwood, thank you for your testimony today. There will be more 
questions that we will submit to you. And we would appreciate 
very much you seeing that they are responded to in a timely 
fashion because we are going to be in time constraints as we 
start this process, and we will probably be marking that bill 
up in the next 60 days or so. Timely response would be 
important.
    Mr. Callahan. Thank you very much.
    The subcommittee is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                          DEPARTMENT OF ENERGY

                                WITNESS

SPENCER ABRAHAM, SECRETARY, DEPARTMENT OF ENERGY
ROBERT CARD, UNDER SECRETARY, DEPARTMENT OF ENERGY

                            Opening Remarks

    Mr. Callahan. Good morning. Good morning, Mr. Secretary.
    Secretary Abraham. Mr. Chairman.
    Mr. Callahan. Thank you for your appearance, your second 
appearance before this august body. We understand that the 
administration has suggested a budget level for you that meets 
with your approval and that will allow you to have the 
necessary resources to run effectively your agency. We look 
forward this morning to your testimony. I will have no opening 
statement, but naturally we will have some questions. We would 
also allow members 5 days to submit questions, and we would 
appreciate your expediting that response to us.
    Pete, do you have any opening remarks?
    Mr. Visclosky. Mr. Chairman, not only to welcome the 
Secretary, but to preface the hearing by noting that you have 
decided not to seek reelection. There will be time in other 
forums to address the issue at greater length, but I do want to 
publicly indicate that I believe this country is a lot better 
off because you have served in this body. And I, in particular, 
as a member of the minority party, appreciate the trust you 
have shown in myself and the other members of our side and the 
fact that you have and continue to bend over backwards to be 
more than fair. You have been a gentleman, and I do respect 
your decision, hope it is great for you, personally, but we are 
going to miss you. But we are going to have a lot of fun in the 
meantime.
    Mr. Callahan. We still have 9 more months to do all of 
the----
    Mr. Visclosky. We have got a lot of time. [Laughter.]
    Mr. Callahan. And it is not an obituary. [Laughter.]
    You know, I just suddenly woke up one morning and 
discovered that there is a real world out there, and I am going 
to go back and get in that real world, but thank you for your 
comments, Pete.
    Mr. Secretary.

                 Opening Statement of Secretary Abraham

    Secretary Abraham. Mr. Chairman, let me begin just by 
echoing Congressman Visclosky's remarks with respect to your 
service. We have worked together for I think over 10 years now 
in different roles that I have had, and you have been here in 
the House, and I have appreciated your kindnesses, as well as 
your abilities in all of the projects that we have worked on. I 
have particularly, come to admire them during the last year 
when we have worked together in this process, and so I just 
want to say best wishes, but also thank you for tremendous 
service to our country. I look forward to the year ahead, 
though, and continuing to build on the success we have had to 
date.
    Mr. Callahan. Thank you, Mr. Secretary.
    Secretary Abraham. Today, I would like to just do two 
things. First, is to submit a fairly lengthy statement 
outlining our budget, and then maybe devote a little bit of 
time to just kind of giving an overview here of the budget of 
the Department and then obviously look forward to answering 
questions from the Members.
    As a member of the Senate, I joined a lot of my colleagues 
in raising serious questions about the operation and the 
management of the Department of Energy. Certainly, during my 
confirmation and initial appearances afterward was asked a lot 
about those views I had expressed during my previous role in 
the Senate and how I was going to adapt to the role here.
    When I was asked by the President to lead the Department, I 
knew very well that the first task would include a 
comprehensive management reform effort, and I think that our 
2002 budget reflected that need. As you will recall, last year 
I described our first budget, given the brief time frame we had 
to put it together, as a transition from what had been 
inherited to where we wanted to head in the budgets of 2003 and 
beyond. We had made it very clear that we were not going to 
make major financial commitments to missions and programs which 
might, after serious review, already achieved their goals or 
were in need of restructuring.
    So, during the last 12 months, a major part of our effort 
has been to try to address some of that analysis. We clarified 
the Department's mission and set in motion a process that I 
think will change the way Department does business. We 
performed a very clear-cut, no holds barred review of our 
Environmental Management and Energy Efficiency and Renewable 
Energy programs.


                      STRATEGIC MANAGEMENT REVIEWS


    We are performing a strategic management review of the 
entire Department, and we participated in the Administration-
wide interagency process for national energy policy 
development, the nuclear posture review and the deterrence and 
nonproliferation review, which was conducted by the National 
Security Council.
    Each of those policy and management reviews has helped to 
shape this year's budget in significant ways. There are two 
years where we have not yet had the ability to conduct that 
kind of analysis. In our Fossil Energy program and in our 
Science program, our top leadership, literally, just came on 
board. This week our Director for the Office of Science was 
finally confirmed by the Senate. Our Assistant Secretary for 
Fossil Energy was confirmed just a couple of weeks ago. But 
reviews in those areas will now commence so that in the future 
we can, I think, present both this Committee and its


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abraham, Hon. Spencer............................................     1
Card, R.G.......................................................1, 1223
Decker, Dr. J.F..................................................  1223
Garman, D.K......................................................  1223
Magwood, W.D., IV................................................  1223


                               I N D E X

                              ----------                              

                          Secretary of Energy

                                                                   Page
Advisory Boards, List of all used.............................1035-1037
Aircraft.........................................................  1046
Alternative Dispute Resolution................................63-64, 74
Ames Laboratory, Iowa............................................    52
Annual Performance Plan, FY 2002................................398-647
Argonne National Laboratory......................................38, 58
Arctic National Wildlife Reserve.................................    44
Backlogs in Weapons Testing Schedules............................  1167
Benefits, Enhanced Severance.....................................   654
Biodetection System..............................................  1166
Biomass..........................................................    52
Bioproducts......................................................    52
Bonneville Power Administration.................................88, 656
Budgeting and Accounting for Nuclear Weapons.................1200, 1202
Carryover Balances Report........................................   751
Challenges at the Department of Energy...........................    65
Chemical and Biological Detection Research....................... 67-69
Chief Operating Officer's ``Watch List''.........................    91
Civilian Radioactive Waste Management.................45-47, 58, 70, 71
Clean Coal Technology Program.................................1157-1158
Clean Power Initiative...........................................  1173
Cleanup Contracts, Renegotiating and Recompeting.............1214, 1215
Climate Change................................................1069-1070
Columbia River Corridor..........................................    29
Construction Project Overrun Funding.............................   750
Contractor Employment Levels..................................1038-1045
Contractors Assigned to Washington.............................662, 664
Contractor Leases in the National Capital Area...................   678
Contracts, Support Service.................................663, 679-738
Contracts, Listing of Major.....................................652-653
Counter-Terrorism/Physical Security............................81, 1204
Cyber Security................................................1162-1163
Defense Laboratories............................................. 60-63
Deobligations, Prior Year.......................................747-749
Department of Defense......................................33-34, 77-78
Department of Energy Non-Defense Mission.........................    66
Depleted Uranium Hexafluoride (DUF6)............................. 50-51
Design Basis Threat..............................................    81
Distributed Energy Systems.......................................    54
DOE Aircraft Leased or Owned..................................1046-1052
DOE and Enron....................................................  1189
DOE Annual Performance Plan for FY 2002.........................364-647
DOE Funded Contractor Leases in the National Capital Area........   678
DOE-NNSA Relationship............................................65, 87
DOE Organization.................................................    86
Electric Energy Systems and Storage.............................. 54-55
Electricity Storage.............................................. 53-55
Employees.....................................660-661, 662-663, 664-677
Energy and Water Development Appropriations Bill, Sec. 301......649-651
Energy and Water Development Appropriations Bill, Sec. 302.......   654
Energy and Water Development Appropriations Bill, Sec. 303.......   654
Energy and Water Development Appropriations Bill, Sec. 304.......   655
Energy and Water Development Appropriations Bill, Sec. 306.......   656
Energy and Water Development Appropriations Bill, Sec. 307.......   657
Energy and Water Development Appropriations Bill, Sec. 601.......   658
Energy Crisis.................................................1217-1218
Energy Efficiency...........................................5, 45, 1161
Energy Information Administration................................  1177
Energy Legislation, Effects of No Senate Action on............1159-1160
Energy Task Force Records....................................1190, 1191
Enhanced Severance Payments......................................   654
Enron Investigation.....................................1185-1187, 1188
Environmental Cleanup Program................................1173, 1206
Environmental Management........................5-7, 70, 72, 1172, 1211
Environmental Management Cleanup Reform Account...........28-31, 35-37,
 56, 73, 1112-1115
Ethanol..........................................................    52
Excess Facilities.......................................1071-1095, 1097
Excess Materials.................................................  1096
Executive Office of the President, DOE Employees Assigned to the.
 660-661
Excepted Service for Personnel...................................   647
Fermi National Laboratory........................................    91
Foreign Travel...................................................  1131
FreedomCAR....................................................37-39, 45
Fuel Cell........................................................38, 69
Functional Support Costs Report, FY 2001.......................753-1033
FY 2003 Budget Request...........................................     3
FY 2001 Report On Functional Support Costs.....................753-1033
FY 2001 M&O Contractor Employees Assigned To DOE-Washington....664, 677
FY 2001 Performance and Accountability Report....................93-397
FY 2002 Annual Performance Plan.................................398-647
General Provisions...............................................   649
Genomes to Life..................................................  1066
Global Climate Change.........................................1069-1070
Hanford, Washington................................28-29, 58-59, 70, 91
High-Level Waste Salt Processing Project.........................    91
High Temperature Superconductivity...............................    54
Historically Black Colleges and Universities.......1104-1106, 1107-1129
Hispanic Serving Institutions......................1104-1106, 1107-1129
Homeland Defense/Homeland Security........................42, 75-76, 81
Human Genome Project....................................66-67, 82, 1065
Hydrogen.........................................................    38
Idaho.....................................................63-64, 70, 74
Infrastructure......................................85, 1071-1095, 1097
Internal Reprogramming..........................................744-746
International Atomic Energy Agency (IAEA)........................    60
Isotope Production Facility......................................    91
K-Basins.........................................................    91
Kazakhstan, Nuclear Nonproliferation with........................  1170
Laboratory Directed Research and Development..........60-63, 1060, 1062,
 1192-1196
Lawsuits.........................................................  1100
Lawrence Livermore National Laboratory.........................91, 1197
Legislation to Implement Budget..................................  1099
Listing of Major Contracts......................................652-653
List of Support Service Contractors.............................679-738
Litigation Costs..............................................1101-1103
Liquid Waste at the Savannah River Site.......................... 56-57
Lockheed Martin.........................................63-64, 74, 1198
Los Alamos National Laboratory...................................    91
Management and Integrating (M&I) Contracts, List of.............652-653
Management and Operating (M&O) Contractor Employees, List of....664-678
Management and Operating (M&O) Contracts, List of...............652-653
Materials Protection Control and Accounting (MPC&A).............. 40-42
MINATOM..........................................................    43
Mixed Oxide Fuel/Disposition..............................29, 46, 56-57
Moab, Utah, Uranium Tailings Pile at..........................1220-1221
Motor Vehicles................................................1053-1055
Nanotechnology...................................................  1064
National Nuclear Security Administration.......3, 34, 61, 65-66, 77-78,
 83-84, 86, 87
National Energy Plan.............................................44, 52
National Ignition Facility (NIF).................................31, 91
National Security Mission..................................82, 86, 1165
National Transmission Grid.......................................    44
Natural Gas......................................................  1177
Naval Reactors...................................................     4
Neutrinos........................................................    91
Non-Competitive Actions/Awards...................................   649
Nonproliferation....................................4, 40-44, 1182-1184
Nuclear Energy...................................................     5
Nuclear Nonproliferation.........................40-44, 1170, 1182-1184
Nuclear Posture Review (NPR)..................................34, 77-78
Nuclear Power 2010...............................................  1210
Nuclear Reactor Safety in the Former Soviet Bloc.................  1171
Nuclear Testing, Underground.....................................  1181
Nuclear Weapons Policy........................................1179-1180
Nuclear Weapons Programs.................................31, 1200, 1202
Nuclear Weapons Stockpile........................................    32
Nuclear Weapons Stockpile.................................32, 65-66, 79
Office of Homeland Security......................................    81
Office of Independent Oversight and Performance Assurance........    80
Office of the Inspector General........................1156, 1167, 1197
Office of Public Affairs......................................1132-1151
Office of Science..............................................7, 66-67
Office of Science and Technology Information (OSTI)..............   743
Office of the Secretary..........................................   660
Oil Imports....................................................38, 1130
Pacific Northwest National Laboratory............................    58
Paducah, Kentucky................................................ 50-51
Partnership For A New Generation Of Vehicles.....................    38
PATH 15....................................................44, 90, 1216
Performance Measures.............................................    92
Performance and Accountability Report, FY 2001...................93-397
Physical Security/Counter-Terrorism......................81, 1204, 1206
Pit 9.........................................................63-64, 74
Portsmouth, Ohio................................................. 50-51
Power Marketing Administrations.................................. 88-89
Power Transmission Lines.........................................    44
Princeton Plasma Physics Laboratory, Safeguards & Security.......  1164
Prior Year Deobligations........................................747-749
Project Management...............................................    91
Public Affairs' Federal And Contractor Staff Outside Washington, 
  DC..........................................................1132-1147
Public Affairs' Federal And Contractor Staff Within And Outside 
  Of Washington, DC...........................................1148-1151
Public Law 107-66, Section 301..................................649-651
Public Law 107-66, Section 302...................................   654
Public Law 107-66, Section 303...................................   654
Public Law 107-66, Section 304...................................   655
Public Law 107-66, Section 306...................................   656
Public Law 107-66, Section 307...................................   657
Public Law 107-66, Section 601...................................   658
Public Notice of Availability for User Facilities................   657
Purchase Power and Wheeling.........................89, 1175-1176, 1219
Radioactive Material Transportation Security..................... 58-59
Reactor Safety in Russia......................................... 59-60
Reduction of Deployed United States Warheads..................... 34-35
Reimbursable Funds............................................1152-1155
Renewable Energy................................................. 5, 45
Renewable Fuel Standards.........................................    52
Report On Carryover Balances.....................................   763
Repository Alternatives..........................................    70
Reprogramming, Internal.........................................744-746
Rocky Flats...................................................... 30-31
Safeguards and Security..............................80, 81, 1164, 1205
Sandia National Laboratory....................................1198-1199
Savannah River Site...........................................56-57, 91
Schedule ``C'' Employees........................................739-742
Science........................................................7, 66-67
Science and Technology Grants, Final Reports to OSTI.............   743
Science Education.............................................1067-1068
Secretary of Energy's Advisory Board.............................  1034
Security.......................................................80, 1222
Severance Payments, Enhanced.....................................   654
Solar Energy..................................................... 47-50
Southwestern Power Administration.......................1174, 1175-1176
Spent Nuclear Fuel...........................................46, 70, 91
Statement--Oral--Secretary Spencer Abraham.......................     2
Statement--Written--Secretary Spencer Abraham....................  8-27
Strategic Management Review......................................     2
Support Service Contracts.......................................679-738
Thermal Energy Integrated Power System (TIPS)................39-40, 659
Training......................................................1056-1057
Transmission Grid................................................    44
Transporting Nuclear Waste, Governments Safety Record in.......58, 1209
Underground Nuclear Testing......................................  1181
Uranium Tailings Pile, at Moab, Utah..........................1220-1221
User Facility, Public Notice of Availability.....................   657
Waivers to Competition...........................................   651
Warhead Refurbishment............................................  1203
Watch List.......................................................    91
Weapons Activities...............................................     4
Weapons Systems...............................................32-33, 78
Western Area Power Administration................................    90
Western States Energy Crisis..................................1217-1218
Wind Energy...................................................... 53-55
Workers Compensation.....................................654, 1058-1059
Work For Others...............................................1152-1155
Working Capital Fund.............................................  1152
Yucca Mountain..........45-47, 58, 70, 71, 1168, 1169, 1207, 1208, 1209

             Science, Renewable Energy, and Nuclear Energy

Advanced Nuclear Medicine Initiative.............................  1299
Alternating Gradient Synchronization.............................  1380
Army Corps of Engineers..........................................  1335
Basic Energy Sciences Subprogram Consolidation...................  1277
Basic Research, Relationship to National Security Mission........  1260
Basic Science Research...........................................  1343
Biography of Under Secretary of Energy Robert G. Card............  1245
Biomass......................................................1258, 1315
Business Practices............................................1373-1375
Clean Energy Technologies, Investment in and Commitment to.......  1345
Clean Energy Technology Exports..................................  1345
Climate Change Research..........................................  1290
Climate Strategy, Nuclear Energy Key to..........................  1232
Congressionally Directed Projects................................  1312
Consortium for Plant Biotechnology Research (CPBR)...............  1285
Decontamination and Decommissioning..........................1304, 1305
Department of Energy Mission.....................................  1225
Department of Energy Reforms.....................................  1224
Department of Energy Reorganization..........................1257, 1276
Department of Energy Science Laboratories........................  1361
Domestic Uranium Industry........................................  1306
Electric Energy Systems and Storage..............................  1359
Electricity......................................................  1309
Energy and Water Development Appropriations Bill, Sec. 307.......  1282
Energy Bioscience................................................  1381
Energy Efficiency and Renewable Energy.................1223, 1227, 1310
Energy Security..............................................1229, 1232
Enrichment Technologies..........................................  1307
Environmental Management.........................................  1224
Environmental Management Cleanup Reform Account..............1246, 1270
Experimental Breeder Reactor II..................................  1305
Experimental Program to Support Competitive Research (EPSCoR)....  1287
External Regulation..........................................1247, 1271
Fast Flux Test Facility..........................................  1304
Facilities and Infrastructure................................1257, 1275
FreedomCAR.............................................1250, 1317, 1346
Fuel Cells...................................................1377, 1378
Fusion Energy Sciences...........................................  1366
Geothermal Energy......................................1258, 1314, 1316
Global Climate Change............................................  1290
Golden Field Office..............................................  1313
Holdback of Funds................................................  1382
Hydrogen Economy/Transportation..............................1252, 1356
Hydropower...................................................1251, 1318
International Nuclear Safety Program.............................  1308
International Partnerships in Nuclear Devopment..................  1234
International Renewable Energy Program...........................  1320
Isotopes.........................................................  1258
Joint Implementation.............................................  1337
Laboratory Directed Research and Development.....1273, 1274, 1355, 1376
Medical Isotopes for Research and Health Care..........1238, 1258, 1298
Million Solar Roofs..........................................1319, 1358
Nanoscale Science Research Centers...............................  1280
Nanoscience......................................1248, 1255, 1363, 1383
National Institutes for Global Climate Change (NIGEC)............  1290
National Renewable Energy Laboratory.............................  1231
National Security Mission..............................1260, 1268, 1362
Nuclear Energy...................................1225, 1232, 1256, 1293
Nuclear Energy Plant Optimization............................1261, 1371
Nuclear Energy Research Initiative...............................  1372
Nuclear Power 2010.........................1253, 1292, 1295, 1368, 1379
Office of Energy Efficiency and Renewable Energy..............1228-1232
Office of the Inspector General..................................  1341
Office of Nuclear Energy, Science and Technology..............1232-1238
Office of Science.....................1238-1244, 1254, 1278, 1343, 1360
Peformance Metrics/Measurement...............................1261, 1286
Power Marketing Administrations..............................1334, 1335
Princeton Plasma Physics Laboratory (PPPL).......................  1342
Project Management...............................................  1341
Public Law 107-66, Section 307...................................  1282
Purchase Power and Wheeling......................................  1334
Rare Isotope Accelerator.........................................  1250
Reforms at the Department of Energy..............................  1224
Regional Research Centers........................................  1370
Relocation Costs.................................................  1375
Remediation of Contaminated Office of Science Facilities.........  1278
Renewable Energy.................................1229, 1353, 1355, 1357
Renewable Energy Production Incentive.......1262, 1322-1333, 1350, 1352
Renewable Energy Research Funding at Universities and National 
  Laboratories.........................................1265, 1353, 1357
Renewable Support and Implementation.............................  1231
Reorganization...................................................  1257
Research Isotopes......................................1238, 1258, 1298
Safety Assistance to Vietnam.....................................  1308
Science......................................................1225, 1360
Science Management and Budget Request............................  1239
Science, Foundation of Technical Progress........................  1241
Science, Priorities and Partnerships.............................  1242
Statement--Oral--Under Secretary Robert Card.....................  1223
Statement--Written--Under Secretary Robert Card..................  1227
Steel Industry...............................................1383, 1385
Strategic Program Review.........................................  1310
Technical Information Management.................................  1283
Technology Deployment............................................  1231
Terrorism........................................................  1361
User Facilities..................................................  1282
United States Initiative on Joint Implementation.................  1337
University Nuclear Engineering Programs..........................  1370
University Reactor Fuel Assistance and Support...................  1302
Uranium-233 Isotopes.............................................  1299
Uranium Industry.................................................  1306
Weatherization...................................................  1348
Work for Others..................................................  1272
Yucca Mountain...................................................  1260

                  Federal Energy Regulatory Commission

FY 2003 Congressional Budget Request and Annual Performance Plan.  1387

                   U.S. Nuclear Regulatory Commission

Budget Estimates and Performance Plan Fiscal Year 2003...........  1453

                                <greek-d>

</pre></body></html>
